   DoDIG-2013-113                      August 6, 2013




             Special Plans and Operations



Assessment of DoD Wounded Warrior Matters - Fort Riley
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
  WARRIOR CARE POLICY
ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
DIRECTOR, JOINT STAFF
  JOINT STAFF SURGEON
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. EUROPEAN COMMAND
COMMANDANT OF THE MARINE CORPS
  MEDICAL OFFICER OF THE MARINE CORPS
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS
DEPUTY CHIEF OF STAFF, G–1, U.S. ARMY
THE SURGEON GENERAL/COMMANDER, U.S. ARMY MEDICAL COMMAND
COMMANDER, WESTERN REGIONAL MEDICAL COMMAND
COMMANDER, WARRIOR TRANSITION COMMAND
COMMANDER, MADIGAN ARMY MEDICAL CENTER
COMMANDER, IRWIN ARMY COMMUNITY HOSPITAL
COMMANDER, WARRIOR TRANSITION BATTALION
SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
SURGERY
SURGEON GENERAL OF THE AIR FORCE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
   Assessment of DoD Wounded Warrior Matters-Fort Riley                Report No. DoD IG-2013-113
                                                                                    August 6, 2013


               Results in Brief: Assessment of DoD
               Wounded Warrior Matters - Fort Riley

What We Did
We assessed whether the Warrior Transition Battalion, Fort Riley, Kansas (hereafter [WTB])
managed effectively and efficiently the programs for the medical care and transition of wounded,
ill, and injured Warriors. Specifically, we evaluated the missions, policies, and processes in
place to assist Warriors in Transition with their return to duty status or transition to civilian life.

What We Found
We identified several noteworthy initiatives implemented at both the Fort Riley WTB and Irwin
Army Community Hospital (IACH). We also identified a number of significant challenges that
require corrective action by the responsible Army Commanders to increase program
effectiveness and efficiency.

What We Recommend
We recommend that the Commander, Army Medical Command (MEDCOM); Commander,
Western Regional Medical Command (WRMC); Commander, Warrior Transition Command
(WTC); Commander, IACH; and Commander, WTB:

   •   Evaluate the current and future cadre personnel requirements of the Warrior Transition
       Units (WTUs) to ensure that the staffing levels, including squad leaders and Nurse Case
       Managers, are appropriate to meet the mission for effective management and support of
       Soldiers during their healing and transition.
   •   Conduct an analysis to determine whether the WTUs and WTBs have adequate funding
       and other resources to support the necessary level of WTB personnel, ongoing staff
       training requirements, and support services in order to maintain optimal staffing levels
       and ratios.
   •   Complete the migration of the Comprehensive Transition Plan (CTP) from the Army
       Knowledge Online to the Army Warrior Care and Transition System.
   •   Review the CTP policy and guidance for relevance and effective content in supporting
       Soldier and Family transition needs.
   •   Assess the effectiveness of WTB leadership and cadre in actively engaging the Soldiers’
       CTP and encouraging Soldiers’ involvement and adherence to the plan for a successful
       transition.
   •   Track each phase of the Integrated Disability Evaluation System (IDES) process to
       identify and resolve the barriers to timely IDES completion for Soldiers assigned or
       attached to WTBs.
   •   Identify obstacles within the Soldiers’ MEB referral, claim development, medical
       evaluation, and Medical Evaluation Board (MEB) processing phases that inhibit prompt
       MEB completion, and provide sufficient staff support for Physical Evaluation Board


                                                   i
   Assessment of DoD Wounded Warrior Matters-Fort Riley          Report No. DoD IG-2013-113
                                                                              August 6, 2013

       Liaison Officers and ensure that staff to Soldier ratio is sufficient to ensure timely
       processing of MEB packages.
   •   Educate Soldiers and ensure their families are educated on how to execute the IDES
       process to include a realistic timeline for what the Soldier can expect once the process
       begins. Additionally, develop a mechanism whereby a Soldier can track and be informed
       of their status in the IDES process.
   •   Develop options for increasing the number of behavioral health personnel at Fort Riley
       IACH to support the numbers of Soldiers requiring such care and to accelerate MEB
       processing.

Management Comments and Our Responses
Management comments from the Surgeon General were responsive, and no additional comments
are required. Please see the Recommendations Table.

Recommendations Table
         Management                     Recommendations            No Additional Comments
                                       Requiring Comment                  Required
Commander, United States Army                                      D.2.1.
Medical Command
Commander, Western Regional                                        D.1.1.
Medical Command
Commander, Warrior Transition                                      C.1.1.a., C.1.1.b., C.2.1.a.,
Command                                                            C.2.1.b.
Commander, Irwin Army                                              D.1.2.a., D.1.2.b., D.1.2.c.
Community Hospital
Commander, Warrior Transition                                      C.2.2.
Battalion




                                              ii
Table of Contents

Results in Brief ................................................................................................................... i
Introduction ....................................................................................................................... 1
     Objectives ..................................................................................................................... 1
     Background ................................................................................................................... 2
Part I - Noteworthy Practices ........................................................................................ 11
     Observation A. Noteworthy Practices for the Fort Riley Warrior
     Transition Battalion .................................................................................................... 13
     Observation B. Noteworthy Practices for the Fort Riley Irwin Army
     Community Hospital ................................................................................................... 21
Part II - Challenges ......................................................................................................... 33
     Observation C. Challenges for Fort Riley’s Warrior Transition Battalion ................. 35
     Observation D. Challenges for Fort Riley Irwin Army Community Hospital ............ 47
Appendix A. Scope, Methodology, and Acronyms ..................................................... 59
Appendix B. Summary of Prior Coverage ................................................................... 65
Appendix C. Reporting Other Issues ........................................................................... 69
Appendix D. Army Guidance for Warrior Transition Units ..................................... 71
Appendix E. Office of the Surgeon General Policy for the Comprehensive
Transition Plan ................................................................................................................ 73
Appendix F. Medical Evaluation Board Background ................................................ 77
Appendix G. Management Comments…………………………….. ..................... …..79
This Page Intentionally Left Blank
Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DoD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1

Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:

    •   Military units, beginning with the Army and Marine Corps, established to support the
        recovery of Service members and their transition to duty status (Active or Reserve
        Components) 2 or to civilian life; and
    •   DoD programs for Service members affected with Traumatic Brain Injury (TBI) and Post
        Traumatic Stress Disorder (PTSD).

Assessment Approach
This is the fifth of six site assessments conducted at Army and Marine Corps Warrior Transition
Units (WTUs). This assessment addressed the wounded, ill, or injured Soldiers’ matters at the
Army WTB located at Fort Riley, Kansas. To obtain unbiased data, not unduly reflecting the
views of either the supporters or detractors of the program, we used a two-pronged approach to
select our respondents. First, we determined how many Service members to interview, and then
we applied a simple random sample approach to determine the Service members we should
interview, as described in Appendix A. Subsequently, we interviewed 48 individuals and 6
groups of Army wounded, ill, and injured Soldiers.

Additionally, we interviewed all available members of the key groups at Fort Riley responsible
for the Soldiers’ care. Specifically, we conducted meetings and interviews during our 2-week
visit to Fort Riley, Kansas that included Irwin Army Community Hospital (IACH) and WTB
military and civilian staff and contractors supporting the WTB. A list of the meetings conducted
at the WTB and IACH located at Fort Riley, Kansas from May 10 to 20, 2011, is shown in
Appendix A, along with the scope, methodology, and acronyms of this assessment. Appendix B
discusses the prior coverage of this subject area.

The observations and corresponding recommendations in this report focus on what we learned at
Fort Riley, Kansas. We believe that some of our observation may have implications for other
WTUs and WTBs and should be called to the attention of those responsible for these programs.


1
  Subsequent to our project announcement and at the initiation of our fieldwork, the Army’s Warrior Transition
Command (WTC) informed us that approximately 10 percent of the Soldiers assigned or attached to Warrior
Transition Units (WTUs) were combat wounded.
2
  The Army consists of two distinct and equally important components, the Active Component and the Reserve
Component (Army National Guard and the Army Reserve).


                                                         1
Additional reports and/or assessments may be subsequently performed by the DoD Office of
Inspector General on DoD Wounded Warrior matters or other related issues as they are
identified. Appendix C discusses the specific issues, concerns, and challenges that we identified
at Fort Riley that may have to be addressed in future assessments and/or reports.

Background
According to the Army’s Warrior Transition Command (WTC), on September 1, 2012, there
were 9,852 Soldiers in transition in the Army WTUs and Community Based Warrior Transition
Units (CBWTUs). 3 Of the 9,852 Soldiers in the WTUs and CBWTUs, over 1,000 Soldiers were
wounded in combat, approximately 2,000 were injured or became sick and were medically
evacuated 4 from theater, and approximately 2,100 returned from a deployment prior to entry into
a WTU but were not medically evacuated during the deployment. Of the remaining 4,716
Soldiers who had not deployed within the last 6 months, 3,492 had deployed one or more times
and 1,224 are not in the WTC program for deployment-related reasons. 5

Army Guidance
Army guidance for the care and management of Warriors in Transition (hereafter, “Soldiers”) is
contained in the “Warrior Transition Unit Consolidated Guidance (Administrative),” March 20,
2009 (hereafter, “Consolidated Guidance”). The purpose of the Consolidated Guidance is to
prescribe the policies and procedures for the administration of Soldiers assigned or attached to
WTUs. The Consolidated Guidance addresses items such as eligibility criteria for a Soldier’s
assignment or attachment to a WTU, staffing ratios of Army care team members, and other
administrative procedures for determining eligibility of Soldiers for assignment or attachment to
a WTU. Appendix D summarizes the Consolidated Guidance requirements.

After our visit, the WTC updated their policy related to the Comprehensive Transition Plan
(CTP) for Soldiers assigned/attached to WTUs and CBWTUs; and formalized a review process
that facilitates the Soldiers progression through the WTU/CBWTU. The updated CTP Policy
and Guidance, December 1, 2011, is explained in further detail in Parts I, II, and Appendix E of
this report.

Warriors in Transition
The Army’s wounded, ill, and injured Service members were referred to as Warriors in
Transition (WTs) at the time of our site visit. The mission statement of a Warrior in Transition
is:




3
  Community-Based WTUs are primarily for Reserve Component Soldiers. According to the Consolidated
Guidance, the Community-Based WTU is a program that allows Warriors to live at home and perform duty at a
location near home while receiving medical care from the TRICARE network, the Department of Veterans Affairs,
or Military Treatment Facility (MTF) providers in or near the Soldier’s community.
4
  Medical evacuation is the transport of a patient to a place where medical care is available.
5
  Figures provided by the Army WTC, Program Performance and Effectiveness Branch, September 10, 2012 and
July 1, 2013.


                                                      2
                  I am a Warrior in Transition. My job is to heal as I transition back to duty or become a
                  productive, responsible citizen in society. This is not a status but a mission. I will succeed in this
                  mission because I am a Warrior.

As of December 1, 2011, the Army replaced the term, “Warrior in Transition” with “Soldier.”

Warrior Transition Units
In 2007, the Army created 35 WTUs at major Army installations primarily in the Continental
United States (CONUS) and at other sites outside CONUS to better support the recovery process
of the Army’s wounded, ill, and injured Service members. As of December 2011, there were 28
WTUs located in CONUS, 1 in Hawaii, 1 in Alaska, and 2 in Europe, as well as 8 community-
based WTUs located in CONUS and 1 in Puerto Rico.

A WTU is a company-level unit and a WTB includes multiple companies or CBWTUs. A field-
grade officer 6 (typically a lieutenant colonel) commands a WTB. A WTB has multiple
companies or CBWTUs that report to him or her. The unit located at Fort Riley is a battalion
size unit and is a WTB. Additionally, a WTU refers to a unit including the WTB. Therefore,
throughout this report we will refer to WTU when citing general policy applications that apply to
all units and WTB when specifically referring to the WTB at Fort Riley.
The commander of each WTB reports to the commander of the Military Treatment Facility
(MTF). Army WTB care teams consist of, but are not limited to, military staff; physicians;
nurses; behavioral health specialists, such as psychologists and social workers; occupational
therapists, including civilians; and outside organizations offering resources to the Soldiers in
support of mission accomplishment.

Figure 1 illustrates the Regional Medical Commands Area of Responsibility and their
geographically aligned CBWTUs, to include Fort Riley.




6
 A military officer, such as a major, lieutenant colonel, or colonel, ranking above a captain and below a brigadier
general.


                                                           3
                  Figure 1. Regional Medical Commands Area of Responsibility




          Source: Warrior Transition Command – December 2011

WTUs provide support to Soldiers who meet the eligibility criteria for assignment or attachment
to a WTU. The eligibility requirements are that the Soldier:

    •    must have a temporary physical profile; 7
    •    is anticipated to receive a profile, for more than 6 months with duty limitations that
         preclude the Soldier from training for or contributing to unit mission accomplishment;
         and
    •    the acuity of the wound, illness, or injury requires clinical case management to ensure
         appropriate, timely, and effective utilization of and access to medical care services to
         support healing and rehabilitation.8

Triad of Care
The Army established the Triad of Care concept to envelop the Soldiers and their families in
comprehensive care and support which focuses on each Soldier’s primary mission – to heal and
transition. The “Triad of Care” consists of a squad leader, a nurse case manager (NCM), and a
primary care manager (PCM). Within the “Triad,” the squad leader leads Soldiers, the nurse


7
  According to Army Regulation 40-501, “Standards of Medical Fitness,” December 14, 2007, the basic purpose of
the physical profile serial is to provide an index to overall functional capacity. The physical profile serial system is
based primarily upon the function of body systems and their relation to military duties. The six factors evaluated are
physical capacity or stamina, upper extremities, lower extremities, hearing, and ears, eyes, and psychiatric. Profiles
can be either permanent or temporary.
8
  Army National Guard and Army Reserve Soldiers may be eligible for assignment or attachment to a WTU but fall
under a different and more complex process than Active Component Soldiers. The Consolidated Guidance provides
the processes for assignment or attachment to a WTU.


                                                           4
case manager coordinates their care, and the primary care manager oversees the care.
Specifically, the Triad of Care works together as a team to collect Soldier data and information
and develop a plan of care specific to each Soldier. The plan of care addresses medical
treatment, administrative requirements, support needs, and disposition. The intent is for all of
these elements to work together to ensure advocacy for the Soldiers, continuity of care, and a
seamless transition back into the force or to a productive civilian life. Figure 2 shows the Triad
of Care structure.

                                           Figure 2. Triad of Care




                         Source: Brooke Army Medical Center, Warrior Transition
                         Battalion Handbook, June 2010

Fragmentary Order (FRAGO) 3 to Execution Order (EXORD) 188-07, March 20, 2009,
established the WTU Triad of Care staff to Soldiers ratios at: squad leader (1:10), nurse case
manager (1:20), and primary care manager (1:200).

The following is a brief description of each Triad of Care member’s roles and responsibilities.

    •    Squad Leader – a non-commissioned officer (NCO) in the rank of sergeant (E-5) or staff
         sergeant (E-6) and is the first line supervisor for all Soldiers. Their duty description
         includes but is not limited to accounting for Soldiers daily, counseling them and guiding
         them in their CTP, 9 ensuring that they attend all appointments, tracking all of their
         administrative requirements, and building trust and bonding with Soldiers and their
         families.
    •    Nurse Case Manager (NCM) – a civilian or Army nurse who provides the
         individualized attention needed to support the medical treatment, recovery, and
         rehabilitation phases of care of the Soldiers. The goal of case management is to
         orchestrate the best care for the Soldiers by monitoring progression of care, Transition




9
  The CTP supports Soldiers in returning to the force or transitioning to a Veterans’ status. Although standardized,
the CTP allows each Soldier to customize his or her recovery process, enabling them to set and reach their personal
goals with the support of the WTU cadre. For additional information on the CTP, see Observations A, C and
Appendix E.


                                                          5
         Review Board 10 recommendations, and Soldiers’ respective goals to facilitate transition
         of the Soldier from one level of care to the next.
     •   Primary Care Manager (PCM) – is either a military or a civilian healthcare provider
         (for example, physician, physician assistant, or nurse practitioner) who is the medical
         point of contact and healthcare advocate for the Soldier. They provide primary oversight
         and continuity of healthcare and are to ensure the level of care provided is of the highest
         quality. They are the gateway to all specialty care (such as behavioral health specialists
         or orthopedic surgeons) and they coordinate with other care providers to ensure that the
         Soldiers are getting the treatment that they need.

Fort Riley, Kansas
Fort Riley, Kansas, is located 12 miles west of Manhattan, Kansas, in the northeastern part of the
state. The Army 1st Infantry Division, famously known at the “Big Red One,” and its supporting
units have been the post’s main division since 2006. The mission of 1st Infantry Division is to
deploy, conduct full spectrum operations as part of a Combined Joint Task Force or designated
force headquarters, and transition to follow-on operations. Fort Riley has connections to the
Oregon and Santa Fe Trails, and for the famed “Buffalo Soldiers,” that trained for patrolling
these important travel and economic routes.

The Army named Fort Riley in honor of Maj. Gen. Bennett C. Riley who led the first military
escort along the Santa Fe Trail in 1829. The First Infantry Division and Task Force Danger
conducted operations in Iraq from 2003 to 2005. The Division led the largest air/combat
insertion of an armored heavy task force in U.S. Army history. Fort Riley also boasts an
extensive Resiliency Campus that seeks to improve comprehensive fitness of service members
and their families.

Additionally, the Soldier and Family Assistance Center (SFAC) provide Fort Riley Soldiers and
their families with a “one stop shop” for linkage to care and support services at the WTB. Their
mission is to provide the Soldier with a clear path back to the military force or to civilian life,
and providing an infrastructure of support for our Nations’ heroes. Services available to assist
Soldiers include educational programs, financial services, and family support programs such as
Spouses Understanding Needs.

Surrounding Area
Fort Riley is located less than 5 miles from Junction City, Kansas, which has a population of just
over 23,000. Junction City is one of the “Top 200 Towns in America to Live for Anglers and
Hunters” by Outdoor Life magazine. Local Milford Lake is the Fishing Capital of Kansas.
Geary Community Hospital is located here. The hospital has a capacity of 65-staffed beds, and
provides clinical and specialty services including neuroscience, psychiatry, orthopedics,
radiology, and intensive care.




10
  Transition Review Boards are intended to facilitate dialogue between the Warrior and the Triad of Care, chain of
command, and other members of the Warrior’s care team, as appropriate, regarding both the Comprehensive
Transition Plan progress and future strategy for the Warrior’s transition.


                                                         6
Manhattan, Kansas, is approximately 10 miles northeast of Fort Riley, has a population of
50,000, and is home to the main campus of Kansas State University. The Mercy Regional
Health Center and the Manhattan Surgical Center are located here. Mercy Regional Health
Center is a 111-bed facility with services such as Emergency, Neuroscience, Oncology,
Orthopedics, Radiology, Intensive Care, and Wound Care. Manhattan Surgical Center has an
additional 13 specialty beds.

Salina, Kansas, is located about 50 miles west of Fort Riley. Salina is the regional trade center in
north central Kansas centered in one of the largest wheat producing areas of the world. Salina
Regional Health Center is a 204-bed hospital, offering services in Emergency, Neuroscience,
Oncology, Orthopedics, Radiology, Rehabilitation/Physical Therapy, Intensive Care & Neonatal
Intensive Care, Psychiatry, and Wound Care. Salina Surgical Hospital provides an additional 15-
bed capability.

Located about 70 miles east of Fort Riley is Topeka, Kansas, and 130 Miles northwest of Fort
Riley is Leavenworth, Kansas. The Veterans Administration (VA) Eastern Kansas Health Care
System operates the Dwight D. Eisenhower VA Medical Center in Leavenworth, Kansas, and the
Colmery-O'Neil VA Medical Center in Topeka, Kansas. These facilities provide a wide range of
inpatient and outpatient services with a focus on primary and secondary care, psychiatric
treatment, and extended care supported by nursing home care units and a domiciliary.

Kansas City, with a population of about 150,000, is located about 130 miles east of Fort Riley.
The University of Kansas Hospital has approximately 576 staffed beds and provides clinical and
specialty services including Emergency, Neurosciences, Oncology, Organ Transplant,
Orthopedics, Radiology, Rehabilitation, Intensive Care, Burn Intensive Care, Neonatal Intensive
Care, Pediatrics Intensive Care, Psychiatry, Wound Care, and Hyperbaric Oxygen.

Western Regional Medical Command
Joint Base Lewis-McChord (JBLM) is the central headquarters for the Western Regional
Medical Command (WRMC). The Command covers 20 states, and is geographically the largest
of the Army’s three regional medical commands in CONUS. Its two-star commanding general
has oversight of nine Army medical treatment facilities, two medical detachments, and other
medical assets within the region. The Commanding General, WRMC also provides oversight for
the healthcare delivery process of Active, and Reserve Component Soldiers, retirees, and their
families.

There are 10 WTUs and two CBWTUs in the WRMC serving over 2,000 Soldiers. As of April
6, 2012, CBWTU-California oversees approximately 268 Soldiers receiving care in California,
Nevada, Oregon, and Washington. CBWTU-Utah manages the care of approximately 215
Soldiers, covering 13 western and central states. The Fort Riley WTB and Irwin Army
Community Hospital (IACH) at Fort Riley are part of the WRMC.




                                                 7
Irwin Army Community Hospital
The Army built the Irwin Army Community Hospital (IACH) in 1955 and a new outpatient
clinic wing in 1978. In the spring 2014, the opening of a new medical facility is projected to
include 57 beds with services including Urgent Care/Emergency Medicine, and Radiology
including CT, MRI, and a Traumatic Brain Injury Center.

The Mission of IACH is to provide healthcare for Soldiers, military families, and retirees, and
support the deployment of medically ready forces. The outpatient wing of the hospital maintains
49-staffed beds, and 17 of the 23 outpatient clinics at IACH. Four primary medical care facilities
are located throughout the local surrounding area.

Warrior Transition Battalion Fort Riley
Fort Riley is home to the Army’s first permanent WTB complex built in 2010. The complex
includes barracks where Soldiers can stay during their recovery. Fort Riley also maintains a
Resiliency Campus that seeks to increase resilience and enhance performance by strengthening
the five dimensions of strength which are physical, emotional, social, family, and spiritual
strength. The Resiliency Campus provides many services and tools that Soldiers and their
families can use to grow and maintain their well-being.

As of April 2012, 22 of the 25 authorized Nurse Case Managers (NCMs) and 28 of the 33
authorized Squad Leaders staffed the Fort Riley WTB Triad of Care. The WTB consisted of a
headquarters company and three additional companies (Alpha, Bravo, and CBWTU-Utah) that
collectively provided unit leadership and focused on meeting the command and control
functions.

Between June 1, 2007, and December 31, 2012, 1,735 Soldiers transitioned through the Fort
Riley WTB. Of the 1,735 Soldiers, 1,277 were active duty, 302 were National Guard, and 156
were Reservists. Table 1 shows the total number of Soldiers and their Army Component that
transitioned through the Fort Riley WTB.

     Table 1. Total Number of Soldiers Transitioning Through the Fort Riley WTB
                     Between June 1, 2007 and December 31, 2012
  Army Component                                         Total Transitioning
  Active Duty                                                            1,277
  National Guard                                                          302
  Reservists                                                              156
  Total Soldiers Transitioning                                           1,735
 Source: Warrior Transition Command




                                                8
Traumatic Brain Injury and Post Traumatic Stress Disorder
TBI 11 and PTSD 12 are common diagnoses for recovering Service members. TBI is also referred
to by its common term, “concussion,” which is when someone receives a direct blow or a jolt to
their head that disrupts the function of the brain. Service members may sustain concussions or
TBIs when exposed to a blast or explosion (sometimes on multiple occasions), which may lead
to serious symptoms. There are three different levels of TBI (mild, moderate, and severe) based
on the severity of damage to the brain.

PTSD is an anxiety disorder or condition that may develop after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
usually begins immediately after the traumatic event but it could start later, even years later. A
PTSD event likely involved actual or perceived death or serious injury and caused an intense
emotional reaction of fear, hopelessness, or horror.

Virtual Behavioral Health is a Western Regional Medical Command initiative that enables
medical providers to conduct behavioral health screening while located at an installation other
than the Soldier’s Readiness Processing site using high-definition video cameras. This allows
behavioral health assets in the region to maintain continuity of care with Soldiers and family
members during their redeployment cycle.

IACH provides additional Behavioral Health Services including PTSD and depression screening,
medication management, and weekly case consultation with behavioral health, and care
management. In addition, IACH initiated several new programs, which included an intensive
outpatient treatment for PTSD, modeled after the Deployment Health Clinical Center program at
Walter Reed, and comprehensive pain management services, which focus on the use of
complementary and alternative medicine therapies to minimize the use of narcotic pain
medications.

IACH has a mild Traumatic Brain Injury (mTBI) Clinic staffed with a registered nurse, physical
therapist, physician assistant, psychologist, and administrative personnel. The mTBI clinic is in
addition to other dedicated IACH behavioral health support available to the WTB. The mTBI
clinic support includes conducting initial intakes.




11
   The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of
America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force Health
Protection and Readiness, October 15, 2008.
12
   The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI
and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD,
U.S. Department of Veterans Affairs, October 15, 2008.


                                                        9
This Page Intentionally Left Blank




               10
Part I - Noteworthy Practices




             11
This Page Intentionally Left Blank




               12
Observation A. Noteworthy Practices for the Fort Riley
Warrior Transition Battalion
We observed two noteworthy practices that the Fort Riley WTB instituted to assist wounded, ill,
or injured Soldiers in their treatment for transition back to the Army or civilian life. Those
practices are:

A.1. WTB Evaluation and Assignment Practices for Soldiers

A.2. The Fort Riley Commanding General’s Personal Involvement in Triad of Leadership Board
     Meetings

These noteworthy practices may be applicable for implementation and utilization at other U.S.
Army Wounded Warrior locations.




                                              13
This Page Intentionally Left Blank




               14
A.1. WTB Evaluation and Assignment Practices for Soldiers
The Fort Riley WTB Interdisciplinary Team met regularly to evaluate the Soldiers’ medical
needs and transition goals and to assign them to the platoon within the WTB best suited to
support those medical needs and transition goals. Specifically, the meetings provided the Triad
of Care support team opportunities to:

     •   determine the medical needs and transition goals of the Soldiers,
     •   assign the Soldiers to a platoon based on their transition needs of either returning to the
         Army or civilian life, and
     •   assess the Soldiers’ capabilities to participate in physical training.

The WTB’s assignment of Soldiers to a platoon based on their transition goals provided an
environment where Soldiers with similar goals could focus on those goals while getting
dedicated attention to achieve those goals. In addition, the WTB had physical training policies
that considered the effects of the Soldiers’ medication and physical training profile and the
Soldiers’ ability to participate in physical training sessions.

As a result, the WTB created a favorable support environment for wounded, ill, or injured
Soldiers to successfully transition back to the Army or civilian life.

A.1. Background

2009 Consolidated Guidance Planning Requirements
According to the consolidated guidance, the WTB is to establish conditions that facilitate the
Soldiers’ healing process physically, mentally, and spiritually. In addition, the consolidated
guidance required the WTB to provide a Triad of Warrior Support (Triad of Care) 13 that worked
together to advocate for Soldiers in Transition, continuity of medical care, and transition back to
the force or return to a productive civilian life. The Triad of Care must work together to develop
a plan specific to each Soldier based on the information obtained about the Soldier’s medical
treatment and other support needs.

March 2011 Comprehensive Transition Plan Policy Planning Requirements
The consolidated guidance required the Triad of Care to develop a plan of care but did not state
how to develop that plan. Later, the March 2011 CTP policy required the use of scrimmage
meetings to develop and implement the plan. The scrimmage is a formal meeting with the
Soldiers Triad of Care and interdisciplinary team 14 members to develop goals and measures of
success for the Soldiers during their time in the WTB and after their transition back to the force
or to civilian life. The interdisciplinary team used the scrimmage meetings to validate the
Soldiers goals, highlight completion benchmarks and tasks, and refine the Soldiers plans. At
Fort Riley, the Triad of Care held the scrimmage with the social workers, occupational
therapists, and other healthcare professionals as necessary. During the scrimmages, the Triad of


13
  The Triad of Care consists of the Platoon Sergeant/Squad Leader NCM and PCM.
14
  Interdisciplinary team members include the Triad of Care consisting of the Squad Leader, NCM, and PCM along
with the Occupational Therapist Registered (OTR) or Certified Occupational Therapy Assistant (COTA), Clinical
Social Worker (CSW), and transition coordinator.


                                                     15
Care attendees discussed the Soldiers’ short and long-term needs and goals. Afterwards, the
Soldiers received assignments to the most appropriate company and platoon within the WTB
based on the decisions made during the scrimmage meetings.

Initial Mention of Scrimmage Meeting Requirements in December 2011
The December 2011 CTP policy describes the purpose of the initial scrimmage as the medical
and mission command plans that set the stage for assignment or movement to a WTB. The
initial scrimmage covers a 30-day period that:

     •   begins with social work, behavioral health, and basic and clinical needs assessments by
         the members of the Triad of Care;
     •   includes the Soldiers completing the self-assessment portion of the comprehensive
         transition plan;
     •   requires the completion of a Soldier’s physical training program consistent with the
         Soldier’s transitions goals within 21 days; and
     •   requires the scheduling of an appointment with the career counselor.

A.1. Discussion

Scrimmage Process at the Fort Riley WTB
Soldiers receive assignments to a platoon and company based on the short- and long-term goals
identified from their individual self-assessment and from the scrimmage meetings. During the
scrimmage, Triad of Care and interdisciplinary team members determine the treatment plan
needed for each Soldier. The Soldier was also an active participant in discussion of their
individual goals and activities, which ultimately the Soldiers described as an effective process for
properly assigning them to the correct company or CBWTU.

Social workers had the responsibility to schedule and organize the follow-on scrimmages to
validate the Soldiers’ goals and to develop and refine plans for Soldier transition outcomes. The
scrimmage frequency depends on the Soldiers’ medical risk 15 levels. At Fort Riley, the Triad of
Care conducted scrimmages for high-risk Soldiers every week, moderate risk Soldiers monthly,
and moderate/low- and low-risk Soldiers quarterly. See the following table for medical risk level
and scrimmage frequency.




15
  “Risk is defined as the probability of harm or injury.” The identification of risk level and management for
Soldiers is a collaborative process among the Commander, Triad of Care and WTU/CBWTU Licensed Clinical
Social Worker (LCSW) and is based on four critical components: Screening, Assessment, Management/Mitigation,
and Reassessment.


                                                     16
        Table 2. Summary of Soldiers' Medical Risk Levels, Scrimmage Frequency,
                              and Scrimmage Attendees
         Medical Risk Level    Scrimmage Frequency                     Attendees
         High Risk             Weekly                       •    Company Commanders
                                                            •    Battalion Surgeons
                                                            •    Nurse Case Managers
                                                            •    Senior Nurse Case Managers
                                                            •    Social Workers
                                                            •    VA Liaison
                                                            •    Ombudsman
                                                            •    Squad Leaders
         Moderate Risk         Monthly                      •    Squad Leaders
                                                            •    Nurse Case Managers
                                                            •    Social Workers
                                                            •    Battalion Surgeon
                                                            •    Occupational Therapist
         Moderate/Low Risk     Quarterly                    •    Squad Leaders
                                                            •    Nurse Case Managers
                                                            •    Social Workers
                                                            •    Battalion Surgeon
                                                            •    Occupational Therapist
         Low Risk              Quarterly                    •    Squad Leaders
                                                            •    Nurse Case Managers
                                                            •    Social Workers
                                                            •    Battalion Surgeon
                                                            •    Occupational Therapist
       Source: Summarized from an Interview with Warrior Transition Unit Social Workers


Squad, Platoon, and Company Assignment
A squad leader in the Bravo Company explained that the 1st Platoon, Bravo Company, was
specifically for Soldiers who were capable of and planning to return to duty. The rest of the
Bravo Company platoons were for Soldiers who were going to separate or retire from the Army.

WTB practice included assigning NCMs to platoons. The NCM team lead said that having
squad leaders and NCMs aligned by platoon had been very helpful in the performance of their
duties, improved communication, and enhanced the NCM support provided.

Physical Training Participation and Requirements
WTB staff and each Company took into consideration the Soldiers’ physical status, medical
status, and physical training needs when requiring them to participate in physical training (PT)
formations. One company commander commented that Soldiers complete a form that explains
the medications they are on and why they cannot participate in early morning PT formations.
For example, PT usually occurred in the early morning, which would result in Soldiers on sleep
medication to give up taking the medication to be present at the early formations. However, both
Alpha and Bravo Companies had provisions for Soldiers on a medical profile to report to the
squad leaders or report for duty later in the day. Squad leaders emphasized that for those
Soldiers unable to participate in morning PT, accommodations were made for PT in the


                                                   17
afternoon. In addition, separating Soldier PT into one of three different capability groups
facilitated their recovery and transition goals.

A.1. Conclusion
The Fort Riley WTB adopted the use of the scrimmage. The scrimmage enabled the WTB staff
to plan support requirements for Soldiers assigned to the WTB. This initiative allowed the Fort
Riley WTB staff to more accurately assess the Soldiers’ needs and goals and provide appropriate
support for achieving the Soldiers’ transition goals. In addition, the WTB permanently assigned
squad leaders and NCMs to the same platoons which provided stability and support for
recovering and transitioning Soldiers. WTB Company policy provided flexibility in physical
training programs to provide Soldiers alternatives to traditional early morning physical training
by consideration of their specific medical limitations.




                                                18
A.2. The Fort Riley Commander’s Personal Involvement in Triad of
Leadership Board Meetings
The Fort Riley Senior Mission Commander or another General Officer representing the
Commander chaired all Triad of Leadership (TOL) Board Meetings making the eligibility
determination process for assigning Soldiers to the WTB. Consequently, the participation of the
highest authority at Fort Riley in determining eligibility set the environment for proper
management of the selection process for assignment of Soldiers to the WTB in accordance with
the letter and spirit of the Army Consolidated Guidance. As a result, Soldiers who could most
benefit from the specialized services of the WTB received assignment to the WTB.

A.2. Background
The consolidated guidance included and put into effect the requirements of Headquarters, U.S.
Army Medical Command FRAGO 3 to EXORD 118-07. The consolidated guidance required
that the TOL board process use specific eligibility criteria to assign only Soldiers that needed the
unique services of the WTB. The WTB has limited resources, and determining how best to
utilize these resources is of upmost importance for efficiency and effectiveness.

A.2. Discussion

Triad of Leadership Board
We observed the May 16, 2011, meeting of the TOL Board that reviewed application packages
from Soldiers requesting assignment to the WTB. The Commanding General (CG), 1st Infantry
Division (1st ID) led this TOL Board session. Typically, the CG, 1st ID, or another general
officer led TOL Board meetings. Other TOL board members included the IACH Commander,
the WTB Commander, and the Command Sergeants Major for the 1st ID, IACH, and the WTB.
A squad leader or senior non-commissioned officer and the first officer in the applicant’s chain
of command accompanied each applicant.

During the TOL Board meeting, TOL members reviewed the applications. Immediate
supervisors presented comments to support assigning the Soldiers to the Fort Riley WTB versus
keeping them in their current units. After the supervisors departed, the TOL Board directed the
applicants to present their justification for requesting assignment to the WTB.

Perceptions of Triad of Leadership Board Assignments
Most Soldiers assigned to the Fort Riley WTB for care that we interviewed believed that the
WTB provided the appropriate program to support their healing and transition goals. One
Soldier indicated that the WTB provided effective support for getting through the physical
evaluation board process but stated that he would be better off at his home unit for his medical
treatment.

Staff officers at Fort Riley responsible for preparing orders to assign Soldiers to the WTB stated
that the TOL Board reviewed applications of Soldiers who had the complex care and case
management requirements that could be best supported by a WTB. The staff said that the TOL
Board strived to identify the higher risk active duty Soldiers with more complex conditions for
entry into the WTB. By assigning only those wounded, ill, or injured Soldiers with the greatest



                                                 19
need provided for better use of the WTB’s limited resources and potentially optimized support
for these Soldier’s recovery and transition.

A.2. Conclusion
Fort Riley implemented the TOL Board screening and assignment processes effectively and in
accordance with the letter and spirit of the consolidated guidance. Leadership by the CG, 1st ID,
or another general officer had a positive impact on the TOL Board screening and selection
processes. Direct engagement by high level command authority ensured selections were made
consistent to the letter and intent of Army guidance. Most Soldiers assigned to the WTB said
they believed that the WTB structure was effective for managing their healing and transition
needs versus staying at their military home units. In addition, the WTB staff said that the TOL
Board endeavors to select the Soldiers with the greatest case management needs. The personal
involvement of the senior leadership at Fort Riley inspired due diligence by the TOL Board and
is in keeping with the intent of the Army to provide the specialized case management services of
the WTB to the most seriously wounded, ill, and injured Soldiers to support their healing and
transition.




                                               20
Observation B. Noteworthy Practices for the Fort Riley Irwin
Army Community Hospital
We observed four noteworthy practices instituted at Fort Riley’s Irwin Army Community
Hospital that helped to ensure Soldiers received quality medical and transition services.

B.1. Equal Access to Care

B.2. Medication Reconciliation Procedures

B.3. Augmenting Military Behavioral Health Support with Civilian Facilities

B.4. Co-location of Department of Veterans Affairs and Medical Department Activity
     (MEDDAC) Transition Services

These noteworthy practices may be applicable for implementation and utilization at other U.S.
medical treatment facilities.




                                               21
This Page Intentionally Left Blank




               22
B.1. Equal Access to Care
Based on our interviews with Fort Riley WTB Soldiers and WTB support staff, we did not note
any differences in access to medical care for Active and Reserve Component Soldiers at Irwin
Army Community Hospital.

B.1. Background
In May 2010, Senator Ron Wyden and Congressman Kurt Schrader requested that we investigate
medical treatment entitlements for all Guard and Reserve Soldiers at all Warrior Transition Units
and mobilization and demobilization sites. As part of our ongoing assessment project, the DoD
Inspector General remained focused on the concerns regarding the management of Reserve
Component (RC) 16 Soldiers in the Warrior Transition Units.

At the time of our site visit there were 339 Soldiers assigned or attached to the WTB at Fort
Riley; 214 active duty, 88 National Guard, and 37 Reservists. Between June 1, 2007, and
December 31, 2012, 1,735 Soldiers transitioned through the Fort Riley WTB. Of the 1,735
Soldiers, 1,277 were active duty, 302 were National Guard, and 156 were Reservists.

B.1. Discussion
In May 2011, we interviewed 75 active duty and 64 National Guard/Reserve Soldiers assigned or
attached to the WTB at Fort Riley. During individual and group interviews, active duty,
National Guard, and Reserve Soldiers stated that they had equal access to medical care.

Soldiers on active duty generally have continuous access to the MTFs and the period of
occurrence of the illness, injury, or disease is not a factor for receiving care. However, according
to the consolidated guidance, RC Soldiers eligibility for medical care at the MTFs or the WTUs
depends on whether the illness, injury, disease, or aggravated pre-existing medical condition
occurred in the line of duty and have been identified and documented in the medical records. In
addition, RC Soldiers eligibility for access to care at the MTFs is contingent upon the period of
time that has expired after discovery of the illness, injury, disease, or aggravated pre-existing
medical condition. The Army programs used to provide RC Soldiers access to medical care at
MTFs are the Active Duty Medical Extension (ADME) and the Medical Retention Processing2
(MRP2). The ADME program voluntarily places Soldiers on temporary Active Duty, to evaluate
or treat RC Soldiers with in-the-line-of-duty service connected medical conditions or injuries.
To be eligible, the RC Soldiers must apply for and receive approval from a medical review
board.

The MRP2 program voluntarily return RC Soldiers back to temporary active duty, to evaluate or
treat unresolved mobilization connected medical conditions or injuries that were either not
identified or did not reach optimal medical benefit prior to their release from active duty. The
RC Soldier has 6 months from the date of release from active duty to submit an application. The
Soldier must still be a member of the Selected Reserves or Individual Ready Reserve (IRR).



16
 The Army consists of two distinct and equally important components, the Active Component and the Reserve
Component (Army National Guard and the Army Reserve).


                                                     23
The ADME and the MRP2 are the programs used to provide RC Soldiers access to medical care.
Furthermore, when at the WTB, RC Soldiers have equal access to care.

Fort Riley Medical Staff Comments on Access to Care
The Fort Riley Irwin Army Community Hospital medical staff that we interviewed stated that the
active duty and RC Soldiers had the same access to medical care. The Fort Riley PCMs that we
interviewed said that there was no difference in access to medical care for the RC Soldiers as
compared to the active duty Soldiers. Furthermore, the Fort Riley mTBI Clinic staff that we
interviewed said that the RC Soldiers sometimes received quicker access to behavioral health
treatment because the RC Soldiers needed the behavioral health treatment to enroll in remote
care 17 facilities away from Fort Riley.

Finally, the Fort Riley Behavioral Health Team all agreed that, in their opinion, there was no
difference in access to medical care for the RC Soldiers, as compared to the active duty Soldiers.

Support Personnel Comments on Access to Care
The Soldier and Family Assistance Center (SFAC) develops training, coordinates access to
community resources, and serves as a source of information, referrals, outreach, and advocates
for Soldiers assigned to the WTB. The SFAC also provides classes, briefings, counseling, and
transition plans based on the Soldiers’ needs and goals. All of the SFAC personnel we
interviewed indicated that there was no difference in access to medical care for active and RC
Soldiers. In addition, the Fort Riley Hospital Chaplain did not perceive any differences in access
to medical care for the RC Soldiers as compared to the active duty Soldiers.

We interviewed both the Army Wounded Warrior Program (AW2) Soldier Family Advocate for
the Warrior Transition Command and the AW2 Advocate for the WTB. Neither of them had
detected any difference in the medical care and services provided to the active and RC Soldiers.

WTB Soldiers’ Comments on Access to Care
Overall, the Soldiers we interviewed indicated no inequality in access to medical care and
medical care delivery between Components. It was the consensus of the Active and RC Senior
NCOs and officers that there was no difference in the medical care and services provided to the
active and RC Soldiers.

Similarly, the active duty NCOs (pay grade E-5 through E-7) and the active duty enlisted
Soldiers (pay grade E-1 through E-4) said that all Soldiers had equal access to medical care and
treatment within the Fort Riley medical facilities. One National Guard Soldier stated that the
medical providers treated all WTB Soldiers like they are active duty.

An active duty lieutenant colonel (pay grade O-5) stated that differences were not evident in care
and that there should be equality among all Soldiers in the WTB. Additionally, an RC major



17
  Remote care is a managed care option, bringing benefits of TRICARE Prime in designated remote locations. In
designated remote locations in the United States; usually more than 50 miles or one hour's drive time, from a
military hospital or clinic.


                                                      24
(pay grade O-4) said that access was equal for all Soldiers; he further explained that he expected
no difference in treatment and that respect and care should be the same for everyone.

One Active duty chief warrant officer said that he had not heard of a difference concerning equal
access and medical treatment within the Fort Riley medical facilities. Another RC chief warrant
officer stated that the active duty and the RC Soldiers all had equal access to medical treatment
and that everyone was treated the same.

Others Comments on Care
Subsequent to our site visit to the WTB at Fort Riley, we met with the National Guard Bureau
Chief Surgeon on November 15, 2012, and the Oregon National Guard, Joint Forces
Headquarters on November 28, 2012. During these meetings, they expressed no concerns about
the management of Guard and Reserve Soldiers with respect to their access to WTU resources.

B.1. Conclusion
The Soldiers we interviewed stated they received equitable access to medical care for the
condition(s) that required their assignment or attachment to the WTB. Furthermore, the medical
and administrative personnel also concurred that equitable access to medical care was provided
to active and RC Soldiers. We concluded that active and RC Soldiers received equal access to
medical care while assigned to the WTB at Fort Riley. Nevertheless, we recommend continuing
analysis of patient satisfaction surveys in order to detect any possible future problems and
appropriately address them as they occur.




                                                25
B.2. Medication Reconciliation
Fort Riley IACH medical personnel developed and implemented standard operating procedures
and medication profile management to ensure accurate medication usage for Soldiers assigned to
the Fort Riley WTB. As a result, the Fort Riley IACH medical personnel reduced and mitigated
the risk of negative medication interactions and reactions for Soldiers assigned to the Fort Riley
WTB.

B.2. Background
The Joint Commission, an independent, not-for-profit organization that sets standards and is an
accreditation body in healthcare, issued a Sentinel Event Alert dated January 25, 2006, regarding
the use of medication reconciliation to prevent errors.

The Joint Commission alert encouraged the implementation of medication reconciliation, the
process of comparing a patient's medication orders to all of the medications that the patient has
been taking. The purpose of the reconciliation is to minimize medication errors such as
omissions, duplications, dosing errors, and drug interactions. Medical reconciliation should
occur at every transition of care in which new medications are ordered or existing orders are
renewed. Transitions in care include changes in setting, service, practitioner, or level of care.
This process consists of five steps.

     1.   Develop a list of current medications.
     2.   Develop a list of medications to be prescribed.
     3.   Compare the medications on the two lists.
     4.   Make clinical decisions based on the comparison.
     5.   Communicate the new list to appropriate caregivers and to the patient.

B.2. Discussion
IACH took proactive measures to ensure proper reconciliation of medications for Soldiers that
minimized their risk for adverse medication interactions or reactions. These measures included
implementing standard operating procedures (SOPs) 18 that Fort Riley IACH medical and WTB
personnel used for dispensing medications to Soldiers or managing their availability to Soldiers.
Furthermore, IACH medical and WTB personnel proactively identified situations where Soldiers
could be at risk for adverse outcomes and took appropriate action to mitigate those risks.

Standard Operating Procedures
IACH and the WTB used five SOPs that addressed medication reconciliation to prevent errors in
medication dispensing and to ensure the safety of the Soldier. The SOPs are:

     •    Fort Riley Warrior Transition Battalion’s “WTB Poly-Pharmacy Consult Protocol,”
          September 23, 2010, describes the criteria used by the unit’s pharmacist to identify



18 Standard Operating Procedure-A set of instructions covering those features of operations, which lend themselves
to a definite or standardized procedure without loss of effectiveness. The procedure is applicable unless ordered
otherwise. Also called SOP.


                                                        26
         Warriors who may be at increased risk due to poly-pharmacy 19 and defines risks
         mitigating strategies for the Warrior Transition Battalion.

     •   Fort Riley Medical Department Activity’s “Standard Operating Procedure for Warriors in
         Transition,” October 29, 2010, outlines the procedures for medication reconciliation and
         filling/dispensing of prescriptions for Soldiers. This policy was developed in accordance
         with Office of the Surgeon General/U.S. Army Medical Command (OTSG/MEDCOM)
         Policy Memo 09-22, “Warriors in Transition High Risk Medication Review and Sole
         Provider Program;” MEDDAC Regulation 40-120, “Sole Provider Program;” and WTC
         Policy Memo 10-033, “Warrior Transition Unit Risk Assessment and Mitigation Policy.”

     •   Fort Riley Irwin Army Community Hospital’s “Standard Operating Procedure Sole
         Provider Program,” November 1, 2010, provides a systematic method to detect any
         significant trends indicating an increased use of controlled substances or other drugs and
         treatment of patients with documented heavy use of controlled substances or other drugs
         of potential abuse.

     •   Fort Riley Medical Department Activity’s “Standard Operating Procedure for Warriors in
         Transition Medication Dispensing,” January 2011, outlines procedures for medication
         dispensing due to quantity restrictions on controlled medications and the requirement for
         Soldiers to fill their prescriptions at Fort Riley in accordance with OTSG/MEDCOM
         Policy Memo 90-22, “Warriors in Transition High-Risk Medication Review and the Sole
         Provider Program.”

     •   Fort Riley Irwin Army Community Hospital’s “Standard Operating Procedures for
         Receiving Medications from WTU Soldiers,” May 20, 2011, outlines methods of
         receiving unused mediations back from the WTB Soldiers.

Resolving Overmedication Concerns
Fort Riley IACH medical staff expressed their concern about the amount of medication provided
to Soldiers by an off-post civilian behavioral healthcare clinic. IACH medical staff subsequently
resolved the concern by meeting with the civilian provider. Furthermore, the IACH medical staff
conducted a quality-of-care review and determined that the care provided at the civilian clinic
met the treatment standards for the treatment of the Soldiers’ medical conditions. The IACH
staff indicated that they believed that the perceptions of over-medication had decreased due to
the involvement of the civilian network providers in the Behavioral Health Group meetings.
These meetings increased dialogue among all the providers and facilitated communication to
provide better treatment to the Soldiers.

Proactive Involvement of Medical Staff
Fort Riley IACH medical staff implemented measures to decrease risks from medications to
Soldiers. These measures included:

19
  According to http://medical –dictionary.thefreedictionary.com/polypharmacy, Mosby’s Medical Dictionary, 8th
edition defines “Poly-pharmacy” as the use of a number of different drugs, possibly prescribed by different doctors
and filled by different pharmacies, by a patient who may have one of several health problems.


                                                        27
     •   collaboration between various medical and other support staff regarding review of
         medication prescribed to high-risk Soldiers, and
     •   monitoring the amount of medication provided to high-risk Soldiers to prevent misuse.

The Fort Riley mTBI Clinic staff explained that medication reconciliation occurred with the
provider during each Soldier’s visit to the mTBI Clinic. In addition, the mTBI Clinic providers
communicated with other providers when questions occurred about Soldier’s prescribed
medications. The mTBI Clinic staff conducted weekly interdisciplinary meetings to review each
Soldier’s plan of care and utilization of resources within the Fort Riley IACH. Whenever they
became aware that a Soldier received treatment outside the Fort Riley IACH for behavioral
health reasons, they contacted the facility to inquire about the Soldier’s behavioral health
treatment.

Primary Care Manager Roles
The WTB PCMs explained that there was formal and informal dialogue between the Fort Riley
pharmacies and the PCMs for medication reconciliation and review of potential over medication
or drug-to-drug adverse interactions for the Soldiers.

Pharmacist Roles
The Fort Riley pharmacist conducted weekly reviews of each Soldier deemed to be high-risk and
for those on controlled medications. The pharmacist utilized the Pharmacy Medication Analysis
& Reporting Tool (PMART) 20 to identify all Soldiers prescribed controlled medications. The
pharmacist also collaborated with the PCMs and NCMs to discuss the Soldiers’ medication
profile in an effort to ensure Soldiers’ safety. In addition, the pharmacist contacted prescribing
providers anytime the pharmacy was unsure of the types of medications prescribed to Soldiers.
Finally, as part of the medication reconciliation review, the pharmacist took steps to discontinue
medication on a Soldier’s medication profile that the Soldier was no longer using.




20
  The Department of Defense, Pharmacoeconomic Center developed the WTU-PMART in order to support the
Warriors in Transition High Risk Medication Review and the Sole Provider Program. The WTU-PMART
application provides the WTU healthcare provider with medication information and identifies potential at risk
patients, and compliance to the sole provider program. The database is only accessible to healthcare providers who
are involved with the care of a WTU service member. The WTU-PMART provides prescription on the WTU
service member from all points of service; identifies high-risk individuals; specialized medication reports focused on
high risk medications (that is, narcotic use, sleep aids, etc.)


                                                         28
B.2. Conclusion
Fort Riley IACH had developed and implemented SOPs and local practices that effectively
addressed medication reconciliation for Soldiers. Furthermore, Fort Riley IACH medical
personnel adhered to the intent of the SOPs and fully implemented the local policies and
procedures for medication reconciliation to ensure the safety of each Soldier. The Fort Riley
IACH medical staff was actively involved in mitigating risks associated with multiple
medications prescribed to Soldiers.




                                               29
B.3. Augmenting Military Behavioral Health Support with Civilian
Facilities’ Support
Soldiers assigned to the WTB had access to off-post civilian providers in the community
surrounding Fort Riley for behavioral health care.

This was a result of proactive actions by the Deputy Commander for Clinical Services (DCCS) at
IACH to include civilian providers in an expanded behavioral health network.

Therefore, additional behavioral health appointment options were available to Soldiers
expanding the opportunity for timely remedial care.

B.3. Background
The Fort Riley IACH was primarily responsible for conducting behavioral health evaluations for
Soldiers assigned to the WTB. In addition, IACH developed a network of off-post behavioral
healthcare facilities that provided support to WTB Soldiers.

B.3. Discussion
The on-post IACH behavioral health providers and off-post-network of behavioral health
providers developed an informal group to exchange professional dialogue and communicate
about Soldiers who received care outside of Fort Riley. At the time of this assessment, IACH
provider staff and the group had held two meetings with approximately 30 providers in
attendance. Irwin Army Community Hospital reported that all participants agreed that the
concept of meeting to discuss Soldiers’ treatment by the group was productive, increasing
professional dialogue and facilitated communications among all providers.

B.3. Conclusion
The IACH DCCS’s initiative to develop a Behavioral Health Provider group contributed to
increased professional dialogue, facilitated communications between all behavioral healthcare
providers, and provided access to more timely decisions and treatment options for Soldiers.
These actions had a positive impact on the transition needs and goals of wounded, ill, or injured
Soldiers assigned to the WTB.




                                                30
B.4. Co-location of VA and MEDDAC Transition Services Enhanced
VA Support to Soldiers Assigned to the WTB
Collaboration between the VA staff and the MEDDAC enhanced transition services at Fort Riley
because VA offices were located in the same IACH wing as other support and transition services.
This placement enabled Soldiers to receive quality and timely transition services while assigned
at the WTB.

B.4. Background
The VA office location within the IACH provided the Soldiers assigned to the WTB improved
access to VA services and smoother transition. WTB NCMs referred Soldiers to the VA office
and provided the office with information about the Soldiers’ medical conditions, treatments
already provided, potential treatments required for recovery, and projected VA support and
resources needed. The services available to Soldiers included Compensation and Pension
Examiners, Program Support Assistance, Audiology, VA Vocational Rehabilitation Counselors,
Military Service Coordinators, and Veterans Benefits Advisors.

B.4. Discussion
Co-location of the VA office enabled VA staff to attend weekly Triad of Care meetings for the
Soldiers deemed high-risk. VA staff reported that their office ensure proper coordination of
treatments after they left active duty by scheduling appointments for Soldiers who had recently
transitioned and had been referred to the VA for follow-up care while still assigned to the WTB.
The benefit was that Soldiers had quicker access to schedule VA appointments than if they had
to wait until after discharge from military service.

Additionally, VA staff provided briefings and training to Triad of Care members about VA
specialty programs available to Soldiers. The location of the VA office provided support to the
Triad of Care and enabled Soldiers to use VA programs while at the WTB.

B.4. Conclusion
VA staff participated in Triad of Care meetings to identify high-risk Soldiers who might need
additional VA support after discharge from the Army. Collaboration between VA and IACH
staff provided for improved transition services to wounded, ill, or injured Soldiers, thereby
improving support services while they were still in the WTB, and planned follow-on care by the
VA hospital system after their separation from the Army.




                                               31
This Page Intentionally Left Blank




               32
Part II - Challenges




         33
This Page Intentionally Left Blank




               34
Observation C. Challenges for Fort Riley’s Warrior Transition
Battalion
We identified two challenges that needed to be addressed by the Fort Riley Wounded Warrior
Battalion leadership and staff to help ensure the most successful and effective support for the
care, healing, and transition of Warriors. These challenges were:

C.1. Effect of Squad Leaders and Nurse Case Managers’ Workloads on Quality Care and
     Support

C.2. Comprehensive Transition Plans

We believe that addressing these challenges will ultimately increase the effectiveness of Fort
Riley’s Wounded Warrior Battalion’s management and staff in providing quality and timely care
and services in support of recovering Soldiers and their transitions.




                                                35
This Page Intentionally Left Blank




               36
C.1. Effect of Squad Leaders and Nurse Case Managers’ Workloads
on Quality Care and Support
The excessive workload of the squad leaders and NCMs negatively affected the quality of
support provided to WTB Soldiers.

This occurred because the extensive needs of the high risk Soldiers occupied the majority of the
squad leaders’ and NCMs’ time and efforts.

As a result, squad leaders and NCMs were not always available or had sufficient time to assist
other Soldiers with their administrative requirements and individual transition support goals.

C.1. Background
The Army established broad goals in the consolidated guidance for Soldiers assigned to the
WTB. These goals were:

   •   to provide Soldiers with optimal medical benefit and expeditious, comprehensive
       personnel, and administrative processing while receiving medical care;

   •   to take care of Soldiers through high-quality, expert medical care;

   •   to administratively process Soldiers with speed and compassion during separation; and

   •   to assist with transitioning Soldiers’ medical needs to the VA for follow-on care.

To accomplish these goals, the Army developed a Triad of Care that consisted of the platoon
sergeant/squad leaders, NCMs, and PCMs working together to ensure advocacy for transitioning
Soldiers’ continuity of care with the intention of providing a seamless transition back to duty or
to a productive civilian life.

The Triad of Care worked together as a team to collect Soldier data and information to develop a
plan of care specific to each Soldier. The plan consisted of specific medical treatment,
administrative requirements, and support needs of each Soldier. The following table describes
the duties of the Triad of Care members:




                                                37
                 Table 3. Triad of Care Members and Roles in Soldier Care
   Triad of
     Care                                      Roles in Soldier Care
   Member
 Nurse Case           •   licensed healthcare professional works with the Soldiers in Transition
 Manager                  throughout the medical treatment, recovery, and rehabilitation phases
 (NCM)                    of care;
                      •   assesses, plans, implements, coordinates, monitors, and evaluates
                          options and services to meet Soldier’s health needs;
 Squad Leader         •   NCO responsible for all that the Warrior in Transition, hereafter
                          Soldier in Transition, does or fails to do, and works as part of the Triad
                          providing care for the Warrior and their family;
                      •   provides direct Command and Control (C2) support for the Soldiers in
                          Transition, and ensures the Soldier is attending necessary medical and
                          administrative appointments;
                      •   maintains accountability of Soldiers and equipment;
                      •   links Soldiers in Transition to SFAC for administrative services and
                          benefits;
                      •   submits requests for awards and decorations, and ensures that the
                          Warrior’s records are transferred from losing unit to gaining unit;
                      •   inspects the condition of Soldiers’ billeting, clothing, and equipment;
                      •   keeps the platoon sergeant/leader informed on the squad’s medical
                          status and requirements;
 Primary Care         •   provides primary oversight, continuity of healthcare, and ensures the
 Manager                  level of care provided is of the highest quality;
 (PCM)                •   develops relationships with Soldiers in Transition and is the basis for
                          successful prevention-oriented, coordinated healthcare; and
                      •   helps Soldiers in Transition benefit from consistent healthcare and
                          improved overall health.
Source: WTU Consolidated Guidance

C.1. Discussion
At the time of our assessment, the Fort Riley WTB capacity was 207 and the population was 345
Soldiers. The Consolidated Guidance staffing ratios for the Triad of Care was:

   •   one Squad leader for every 10 Soldiers,
   •   one Primary Case Manager for every 200 Soldiers,
   •   one Nurse Case Manager for every 20 Soldiers,
   •   one Senior Nurse Case Manager for every 200 Soldiers, and
   •   one Licensed Practical Nurse (LPN) or Licensed Vocational Nurse (LVN) for every 200
       Soldiers.




                                                38
WTB staff officers confirmed that a 1 to 10 squad leader to Soldier ratio typically worked well
for Soldiers with normal administrative support needs. However, high-risk Soldiers with
multiple medical issues and medications demand more of the squad leader’s time. Likewise,
NCMs said that they were always over their recommended and manageable caseload ratio and
did not have enough time to do their jobs satisfactorily for all Soldiers assigned. NCMs
attributed the excessive demand on time to the number of high-risk Soldiers that they had to
manage.

Effects of Squad Leaders’ Workload on Soldiers
According to the WTB Company Commanders and First Sergeants, the WTB was 13 squad
leaders short. Staff and WTB Soldiers were aware that the squad leaders managed more Soldiers
than the policy guidance specified and that the workload had become very demanding. The
WTB Chaplain stated that the WTB was supposed to have 1 squad leader for every 10 Soldiers
but that the ratio of Soldiers to squad leaders was often higher causing some squad leaders to
work to exhaustion. The Fort Riley social workers commented that WTB staff experienced
stress and exhaustion from their workloads. The social workers stated they expected the
workload to increase. They also reported the increased complexity of the Soldiers needs being
assigned to the Fort Riley WTB, and indicated that the established staffing ratios limited their
flexibility in placement of Soldiers to certain companies.

Squad leaders’ ratios of 1 squad leader to 10 Soldiers might not be sufficient to manage the
demanding conditions of Soldiers in a WTB, especially if a disproportionate number of high-risk
were assigned to one squad leader. The WTB had a population of Soldiers with many different
medical conditions such as PTSD, TBI, and behavioral health issues. Furthermore, squad leaders
workload increased when they assumed the duties of other squad leaders on leave or otherwise
unavailable. If another WTB team member could not do his or her job then the squad leader had
to do it. One squad leader reported that his caseload was 15 Soldiers, which was manageable as
long as the number of high-risk Soldiers within his squad was less than 3. The ratio of Soldiers
assigned to the 6 squad leaders we interviewed indicated that they collectively had 12 Soldiers
over the ratio established by Army Guidance. Table 5 below shows the differences between
numbers of Soldiers actually assigned to the six squad leaders we interviewed and number of
Soldiers each squad leader should have in their squad per the consolidated guidance.




                                               39
     Table 4. Squad Leaders Soldiers Caseloads Assigned Compared to the Maximum
       Consolidated Guidance Requirements for the Six Squad Leaders Interviewed
   Squad Leaders We                     Soldiers Actually     Per Consolidated         Difference
      Interviewed                           Assigned              Guidance
Squad Leader 1                                  9                    10                     -1
Squad Leader 2                                 10                    10                      0
Squad Leader 3                                 12                    10                     +2
Squad Leader 4                                 11                    10                     +1
Squad Leader 5                                 15                    10                     +5
Squad Leader 6                                 15                    10                     +5
Total Soldiers                                 72                     60                   +12
Source: Interviews with Squad Leaders

WTB Assigned Soldiers Comments on Squad Leaders Workload and Effect
According to the March 2011 policy, a Soldier’s mandatory non-medical activities include
participation in appropriate employment, educational, and internship programs (EEI) in support
of their transition goals. The squad leader has the overall lead for these programs.

During our interviews, RC senior enlisted and officers stated that the excessive number of
Soldiers in the unit put a strain on the squad leaders, which affected the quality of their support
to the Soldiers at the WTB. Active duty sergeants through sergeant first class (E-5 through E-7)
felt that there were insufficient squad leaders assigned. They claimed the stress caused one
squad leader to become a patient in the WTB. Furthermore, the staffing limitations led to the
inability of the WTB to effectively manage documentation essential to the transition process.
The senior enlisted and officers said that the squad leaders did not have enough time to review
the CTP because they were too busy. Senior enlisted and officers stated that the excessive
numbers of Soldiers per squad prevented the squad leaders from assisting a number of Soldiers
with their transition such as obtaining jobs or attending school. As a result, the Soldiers missed
opportunities to participate in activities that could support their transition.

Effects of Nurse Case Managers’ Workload on Soldiers
A majority of the NCMs interviewed reported that they were always over their policy
recommended workload ratio of 1 NCM for every 20 Soldiers and had insufficient time to
manage their workload. NCMs reported that the WTB, remote care, and community-based WTB
were all at caseload capacity, which had pushed NCMs workload beyond a manageable ratio.

Most of the NCMs reported that their effectiveness plateaued when their workload reached 23 to
24 Soldiers. They believed that any number higher than 24 made it very difficult for them to
manage the Soldier’s case on an individual basis. NCMs stated that when a crisis developed
with one Soldier, they were unavailable to support other Soldiers. In addition, when other NCMs
were unavailable due to leave, the remaining NCMs provided coverage of their cases. This
further increased the workload and demands on NCMs. Some routine administrative activities in
support of Soldiers ongoing transitions had to continue regardless of the availability of assigned
NCMs. One NCM mentioned that he had recently initiated close to 17 telephone consultations


                                                    40
instead of face-to-face meetings to help manage his case management workload. Another NCM
explained that multiple factors such as mandatory meetings, training, walk-ins, and any crisis
event impacted the day-to-day management of their assigned Soldier caseload.

The December 2011 CTP policy states that the Soldier, in collaboration with family members,
the chain of command, Triad of Care, and other appropriate counselors, selects the transition
track. The NCM as a member of the interdisciplinary team, assesses, plans, implements,
coordinates, monitors, and evaluates options and services to meet Soldiers’ health needs. Within
24 hours the NCM is responsible for completing a risk assessment and an initial clinical
assessment to identify the Soldier’s immediate needs. Within 5 days the NCM completes a
comprehensive assessment and, in collaboration with other Triad of Care members, develops a
plan of care for the Soldier. Subsequently, Soldiers provided weekly input to the CTP, and
NCMs monitor these inputs. NCMs commented that the CTP process would be simpler and
more user-friendly if the CTP could be reviewed and signed off monthly with the exception of
the those high-risk Soldiers, who usually required more frequent follow-ups. Finally, the policy
states that the Soldier in conjunction with the interdisciplinary team would use the automated
CTP (aCTP) system, counseling records, and Armed Forced Health Longitudinal Technology
Application (AHLTA) to document aspects of his CTP. We address the CTP issues and
recommendations in Observation C.2.

C.1. Conclusion
The Army established the WTB to provide support to Soldiers who require complex medical care
and management support. The WTB used the Triad of Care to support the healing and transition
of the wounded, ill, or injured Soldiers. As members of the Triad of Care, the squad leaders have
the responsibility to be attentive to the needs of the Soldiers so that timely administrative support
prevents delays in the transition process. However, the squad leaders we interviewed had
especially demanding workloads that prevented them from carrying out all their responsibilities
effectively. Likewise, NCMs must collaborate with Soldiers to address the effectiveness of their
medical care to support successful healing. However, excessive workloads also caused the
NCMs to become overburdened and placed at risk the Soldiers’ transition and continuity of care.

C.1. Recommendations, Management Comments, and Our Response
       C.1.1. Commander, Warrior Transition Command:

       C.1.1.a. Evaluate the current and future cadre personnel requirements of the
       Warrior Transition Units to ensure that the staffing levels, including squad leaders
       and Nurse Case Managers, are appropriate to meet the mission for effective
       management and support of Soldiers during their healing and transition.

Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation. The Surgeon General reported that the Warrior Transition Command conducts
periodic reviews of WTU Table of Distribution and Allowance (TDA). The Surgeon General
further explained that WTUs are structured based on forecasted WT population. The forecast
models pre-deployment, theater evacuation, and post-deployment gains into the WTU population
while accounting for actual deployment schedules into the future. Additionally, this forecast


                                                 41
process ensures WTUs are adequately designed to support WT population increases on
installations, and adjust manpower to those installations where WT populations are trending
downward.

The Surgeon General stated that the Warrior Transition Command received approval to continue
to fill Contingency Operation for Active Duty Operational Support positions as required, and use
2-year permanent change of station orders instead of 1-year orders. Finally, they reported that
the Warrior Transition Command is in the process of issuing by August 30, 2013, a revised cadre
assignment policy to ensure best-qualified personnel are selected.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

       C.1.1.b. Conduct an analysis to determine whether the Warrior Transition
       Units/Warrior Transition Battalions have adequate funding and other resources to
       support the necessary level of WTB personnel, ongoing staff training requirements,
       and support services in order to maintain optimal staffing levels and ratios.

Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation. The Surgeon General reported that in December 2012, the U.S. Army
Manpower Analysis Agency (USAMAA) validated the WTU Ratio Determination Model for use
in determining manpower requirements for all WTUs and Community Care Units. In addition,
they reported that USAMAA approved the model application for 3 years. The Department of the
Army issued Execution Order 079-13 on January 6, 2013, that approved maintaining the staffing
levels of the WTU at current ratios. Furthermore, the Surgeon General stated that the annual
analysis of the WTU funding occurs to ensure that adequate funding is available for resources
and training needed by WTU support personnel.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.




                                              42
C.2. Comprehensive Transition Plans
Soldiers and Triad of Care members were not using the CTP in the manner required by Army
policy as the planning tool necessary to support the successful transition needs and goals of
Soldiers. This occurred because:

   •   squad leaders and NCMs had excessive workloads;
   •   squad leaders had limited access to the CTP which prevented them from providing
       effective and timely input regarding the Soldier’s condition;
   •   operation of the automated CTP (aCTP) on the Army Knowledge Online website was
       cumbersome, unreliable, and time consuming;
   •   some Soldiers were not taking advantage of the benefits of the CTP; and
   •   some Soldiers were not truthful or accurate with the information inputted to the CTP.

As a result, there were WTB Soldiers who were not receiving the full benefits of the CTP
process as intended to help support their recovery and transition goals, thus delaying their
transitions and putting at risk its success.

C.2. Background

Applicable Policies
The Office of the Surgeon General Medical Command Policy Memo, 09-011, “Comprehensive
Transition Plan (CTP) Policy,” March 10, 2009, stated that all Soldiers assigned or attached to a
WTU would begin their comprehensive transition plans within 30 days of assignment.

In March 2011, the WTC provided guidance for the development and implementation of the
Soldier’s CTP and aCTP documentation tool. It stated that the primary focus of the CTP is to
provide a strategic tool that supports the Soldier’s goals to heal and successfully transition back
to the force or to separate from the Army. Furthermore, the primary function of the WTU team
is to assist in realistic goal development, provide support to the Soldier, and to validate the
Soldier’s CTP. In addition, the policy states that the WTU assets are available to assist the
Soldiers’ advancing their current military career or to prepare them for a career change while
undergoing medical treatment and vocational rehabilitation. Medical needs determine the length
of time the Soldiers stay in the WTU.

Subsequently, the Office of the Surgeon General issued the December 2011 CTP policy as a
comprehensive update to the March 2011 CTP policy and the consolidated guidance. The
December 2011 CTP policy defined the CTP as a dynamic living plan of action that focuses on
the Soldier’s future, is holistic, and encompasses the six domains of strength: career, physical,
emotional, social, family, and spiritual. As the owner of the CTP, the Soldier is empowered to
take charge of his or her own transition and is accountable for developing and achieving his or
her goals.

The Army’s Enterprise Portal, Army Knowledge Online
The Army’s Enterprise Portal, Army Knowledge Online (AKO), is a primary component of the
Army Knowledge Management (AKM) strategy and the Army Transformation. It is the single
point of entry into a robust and scalable knowledge management system. AKO provides


                                                43
corporate intranet services and single web portal to the United States Army. AKO provides the
U.S. Army with e-mail, directory services, single sign on, blogs, file storage, instant messenger,
and chat. The CTP was on the AKO during the time of our site visit in May 2011.

C.2. Discussion
The CTP is a guide that includes processes for the Soldier to use in planning for transitioning
back to the Army or civilian life. Even though the CTP plan is the Soldier’s plan, the Soldier’s
success using the plan depends on support of the WTB cadre and leadership. The commander’s
responsibilities include the requirements to designate an overall risk assessment and develop a
mitigation plan for the Soldier. The individual assessments completed by the Triad of Care and
PCM are the basis for the overall risk assessment. The commander also holds the members of
the Triad of Care responsible for the Soldiers’ ongoing CTP support requirements.

Soldiers were required to complete a unit orientation within 5 duty days of assignment to the Fort
Riley WTB. The primary objective of the orientation was to set the Soldier’s expectations and
instill a transition mindset. The interdisciplinary team provided assistance by reviewing and
determining the Soldier’s medical condition, treatment needs and prognosis, and helped the
Soldier’s develop individual realistic goals. Additionally, the commander was responsible for
establishing local policies and procedures to ensure that the CTP review process was effective
and required tasks were completed. Ultimately, the commander was responsible for the overall
WTB environment and success of the Soldiers’ recovery and transition process.

Warrior Transition Battalion Staff Perception of the CTP
The WTB company commanders (CO) and first sergeants (1st SGTs) mentioned that the CTP
was an effective tool for supporting Soldiers transition if properly used by the Soldiers.
However, they said that using the automated aCTP on the AKO was sluggish and time-
consuming. Problems with connectivity further discouraged Soldiers from wanting to use the
aCTP. The COs and 1st SGTs commented that CTP access was limited to squad leaders and
NCMs; platoon sergeants had visibility of the Soldiers CTP, however, because administrative
access rights were unable to provide written feedback to the Soldiers information provided on the
CTP.

The IACH social workers commented that Soldiers misused the CTP. Instead of focusing on the
gains the Soldiers made, they used the CTP as a tool to complain about the transition process.
Therefore, some Soldiers were taking their frustration out on the CTP.

Warrior Transition Unit Soldiers’ Perception of the CTP
Active and RC senior enlisted and officers interviewed said that the requirement for a weekly
update was not an effective use of the CTP. Other Soldiers said that not much new information
was added during the weekly updates, thus reducing the value of their weekly updates.
Nonetheless, when the Soldiers did not complete the CTP weekly they faced disciplinary action.
Although the March 2011 CTP policy required weekly updates during the intake process, they
believed the frequency should be changed to once per month thereafter.

Subsequently, the December 2011 CTP Policy changed the weekly CTP update requirement to
monthly for Soldiers not deemed high risk. One officer said that the CTP had a negative effect


                                                44
on his transition. He stated that he was in remote care in another state that he preferred to be in
for his recovery. However, he answered the CTP honestly and the changes flagged him as high
risk. He said that when his CTP status changed to high risk, he had to leave the Community
Based Warrior Transition Unit (CBWTU) at his preferred location for recovery and report to Fort
Riley WTB for the remainder of his recovery and transition. He said that he had been at Fort
Riley for 3 months at the time of our interview. According to the Officer, the CBWTU staff
encouraged the Soldiers to keep their CTPs low risk or at no-risk status to reduce the workload
of the CBWTU staff.

The active duty sergeants through sergeant first class (E-5 thru E-7) in the Fort Riley WTB said
that the CTPs had no effect on their transition and that completing the CTP was “just getting
something done.” In addition, the E-5s thru E-7s said that they received no feedback from the
CTPs and no one paid any attention to their input.

The active duty and RC junior enlisted (E-1 thru E-4) Soldiers described the CTP as useless.
The E-1s thru E-4s said that the experience with the CTP provided “negative feelings about their
existence.” They said that they, “put their heart and soul,” into their CTPs for absolutely no
reason. They said that the staffing levels were insufficient to read their CTP input. Furthermore,
Soldiers perceived the CTP as punishment because Soldiers received counseling for not
completing the CTP.

C.2. Conclusion
All Soldiers need to complete the CTP as required, but have to experience positive feedback
from WTB leadership and NCMs to have the incentive to do so. Correct use of CTP processes
requires a structure to support Soldiers in successfully completing their recovery and transition.
Soldiers and WTB support staff have certain responsibilities for CTP input or review. In
addition, WTB staff conveyed concerns about problems experienced with using the automated
CTP over the AKO network. At the time of our site visit, a number of Soldiers were not
receiving the full benefits the CTP process as intended to help support their recovery and
transition goals.

C.2. Recommendations, Management Comments, and Our Response
       C.2.1. Commander, Warrior Transition Command:

       C.2.1.a. Complete the migration of the Comprehensive Transition Plan from the
       Army Knowledge Online to the Army Warrior Care and Transition System.

Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that the migration of the CTP from Army Knowledge Online to the
Army Warrior Care and Transition System (AWCTS) was completed in June 2012, in
accordance with the timeline provided in Annex A to Warrior Transition Command Operational
Order 11-10.




                                                45
Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

       C.2.1.b. Review the Comprehensive Transition Plan policy and guidance for
       relevant and effective content in supporting Soldier and Family transition needs.

Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that they drafted a regulation to update the CTP policy and guidance
that they plan to issue by December 31, 2013.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

       C.2.2. Commander, Warrior Transition Battalion, assess the effectiveness of WTB
       leadership and cadre in actively engaging the Soldiers’ CTP and encouraging
       Soldiers’ involvement and adherence to the plan for a successful transition.

Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that the Fort Riley WTB reduced the workload of the WTB Cadre to
allow for effective management of all WTB Warriors, including high-risk Soldiers. In addition,
the Surgeon General stated that the aCTP migration to the AWCTS improved the functionality of
the CTPs. Furthermore, that the migration to the AWCTS allows for the important information
to be stored in a central location for timely viewing and adjustment by all WTB stakeholders.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.




                                              46
Observation D. Challenges for Fort Riley Irwin Army
Community Hospital
We identified two challenges related to WTB Soldier medical care that needed to be addressed
by Fort Riley’s Irwin Army Community Hospital leadership to ensure the most successful and
effective support for the care, healing, and transition of wounded, ill, and injured Soldiers. These
challenges were:

D.1. Soldiers Lengthy Transition Times

D.2. Access to Behavioral Health Care Resources

We believe that addressing these challenges will ultimately increase the effectiveness of Fort
Riley’s Irwin Army Community Hospital in providing quality and timely care and services in
support of recovering Warriors and their transitions.




                                                47
This Page Intentionally Left Blank




               48
D.1. Soldiers Lengthy Transition Times
The length of time it took to complete the disability evaluation process exceeded the established
timelines for Soldiers assigned to the Fort Riley WTB.

This was due in part to the lack of Fort Riley IACH personnel needed to support the high number
of Medical Evaluation Board (MEB) 21 cases. Additionally, Soldiers who were undergoing their
MEB were not properly educated about the MEB process and the importance of complying with
their responsibilities for completion and final approval.

As a result, Soldiers had lengthy transition times with potential negative recovery effects on
some Soldiers seeking to transition back to active duty or to civilian status.

D.1. Background

Disability and Integrated Disability Evaluation Systems
The Department of Defense uses the MEB and Physical Evaluation Board (PEB) 22 processes to
determine the fitness for duty and disability status of Soldiers. The DoD case processing
timeline goal for the MEB phase is 100 days for active component members and 140 days for
those in the Reserve and National Guard component. The case processing timeline goal for the
PEB is 120 days for members of all components. The VA makes a separate disability
determination that drives VA disability compensation.

In November 2007, the DoD and VA initiated a joint Disability Evaluation System (DES) pilot
program to analyze and significantly improve the DES timeliness, effectiveness, simplicity, and
resource utilization by integrating DoD and VA processes, eliminating duplication, and
improving case management practices. The DES Pilot subsequently became the Integrated DES
(IDES).

The IDES features a single set of disability medical examinations intended to determine both
military personnel fitness and another set of disability ratings provided by the VA. The IDES
timelines required DoD and VA to completely resolve disability evaluation cases of active duty
Service members within 295 days and 305 days for Reserve and National Guard service
members. The time began with the referral into the IDES and ends when the Service member
returns to a duty status as active duty, Reserve, or National Guard, or receives disability
separation and notification of VA benefits.

The IDES was fully implemented at Fort Riley IACH in February 2010. Following our visit to
Fort Riley WTB, the Under Secretary of Defense for Personnel and Readiness issued Directive-
Type Memorandum (DTM) 11-015 - “Integrated Disability Evaluation System (IDES),”



21
   The MEB is the process designed to determine whether a Soldier’s long-term medical condition enables him/her
to continue to meet medical retention standards. The MEB is an informal board process because, by itself, it does
not drive any personnel actions.
22
   The Physical Evaluation Board formally determines fitness for continued service and eligibility for disability
compensation.


                                                        49
December 19, 2011. This DTM establishes policy, assigns responsibilities, and prescribes
procedures for the IDES process.

The MEB and the PEB are the two main phases in the IDES processes. The MEB phase begins
at the point of referral into the IDES and includes all activities up to the transfer of the completed
MEB case file to the PEB. The PEB reviews a Soldier’s medical and duty performance evidence
to make a determination of fitness to continued military service. See figure 3 below for the full
IDES process timelines.

                     Figure 3. Integrated Disability Evaluation System Timeline




Source: DTM 11-015 dated December 19, 2011

A crucial component of the MEB and PEB is the Narrative Summary (NARSUM). The
NARSUM documents the history of the Soldier’s illness, objective findings based on
examinations, results of radiology and laboratory tests, reports of consultations, response to
therapy, and subjective medical staff conclusions with justifying rationale. The NARSUM seeks
to establish a correlation between the Soldier’s medical defects and physical capabilities.
Therefore, NARSUMs must be timely and accurate in order to provide members of the MEB and
PEB the best information to make a decision regarding how long the disability will persist
because the persistence of the disability determines the Soldiers’ fitness for duty. Physical
examinations 23 and NARSUMs are valid for 6 months only, and should be used within 6 months


23
     AR 40–400 • 27 January 2010 par 7-11(a)


                                                 50
to provide a timely assessment of the Soldiers’ medical defects and physical capabilities. See
Appendix F for more information on the MEB process and the purpose of the NARSUM.

The Physical Evaluation Board Liaison Officer (PEBLO) is the subject matter expert who
provides significant support to Soldiers at the Fort Riley WTB. PEBLOs establish and maintain
communications between the Military Service Coordinators (MSC) and medical providers, create
reports, and inform the MEDDAC Command Staff and Division Surgeon’s office on the progress
of cases through the IDES. PEBLOs track and provide information to Soldiers about their
progress on treatment and evaluation through the DES process.

D.1. Discussion
Fort Riley WTB Soldiers’ disability determinations took an average of 540 days to process
through the IDES, which exceeded the timelines of 295 days and 305 days for active and
Reserve Soldiers respectively.

MEB delays reportedly occurred because of the time required to retrieve medical and
administrative documents from other units and Soldiers were missing and rescheduling medical
appointments. Furthermore, Soldiers had to redo medical and behavioral health appointments
because their NARSUMs were over 6 months old, and no longer valid. In addition, IACH
medical and support staff explained that the lengthy processing time was also due to insufficient
staffing levels to support the high numbers of Soldiers undergoing MEBs. At the time of our
assessment, approximately 12,000 24 active duty Soldiers were in the process of undergoing
MEBs, with over 100 MEB cases on average added weekly. These numbers did not include the
Reserve Component Soldiers in the IDES process at Fort Riley.

Junior enlisted (E-1 thru E-4) Soldiers provided some examples of the delays with the MEB
process.

     •   One Soldier said it took one month to gather medical records for compilation into one
         record.
     •   Another Soldier said it took over six months to obtain his records.
     •   A Soldier said it took five months to process his NARSUM.
     •   One Soldier said his MEB was already in its seventh month. He added that an error with
         the NARSUM further delayed the MEB by five months to correct the NARSUM error.

The Family Advocate and the Warrior Transition Command Veteran’s Advocate said that
psychological NARSUMS usually took longer because of the limited availability of IACH
Behavioral Health providers. In addition, delays also occurred in receiving Soldiers specialty
medical referral reports from off post providers. PEBLOs recommended caseload was 20
Soldiers; however, at the time of our visit in May 2011, PEBLOs had caseloads of 95 Soldiers
each. The PEBLOs said that they received 75 referrals a month but had the ability to complete




24
  The 12,000 Active Duty Service members in the MEB included Soldiers assigned to the WTU and Soldiers going
through the process while still assigned to their units.


                                                     51
only 25. PEBLOs attributed lengthy transition times to the staffing shortages in Mental Health
and other clinical staff supporting the MEB and PEB processes.

Our team determined that the MEB phase for Soldiers assigned to the Fort Riley WTB exceeded
the established 100-day timeline for active Components and 140 days for Reserve Components.
IACH medical providers, administrative support staff, and Soldiers agreed that the lengthy
process had a negative effect on WTB Soldiers’ transition plans and goals. One Soldier said that
his MEB had taken so long that he moved his family without military assistance or
reimbursement because he did not want them to wait at Fort Riley until the end of his medical
board.

Similar to the active duty officers and senior enlisted WTB-assigned Soldiers, the WTB-assigned
RC officers and senior enlisted Soldiers described the process as excessive because it took too
long for Soldiers to process though the MEB and get their disability results. Soldiers could not
effectively determine their transition date from the Army to apply for jobs or register for
educational opportunities to meet their transition goals and needs. Soldiers who wanted to attend
college could not register for school and had concerns that they would have to wait until
subsequent semesters. Moreover, one group of healthcare providers stated that the longer
Soldiers stayed in the WTB, the more new or aggravating conditions they reported. In addition,
another group of providers commented that some WTB Soldiers stayed longer at the WTB
because the Soldiers reported new medical problems as severe, that the providers later
determined as minor and did not require assignment to the WTB for case management services.

D.1. Conclusion
We acknowledge the ongoing work by DoD, VA, and staff to address the multitude of systemic
issues and concerns that continue to affect the phases of the IDES process. However, the
prolonged IDES process appeared to contribute to frustrations and complaints among Soldiers
which negatively impacted the Soldiers and their families as they prepare to transition back to
active duty or to civilian life.

D.1. Recommendations, Management Comments, and Our Response
       D.1.1. Commander, Western Regional Medical Command track each phase of the
       Integrated Disability Evaluation System (IDES) process to identify and resolve the
       barriers to timely IDES completion for Soldiers assigned or attached to WTBs.

The Office of the Surgeon General, U.S. Army Medical Command Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that in June 2012, the Western Region Medical Command (WRMC)
developed and staffed a new IDES section within the Warrior Transition Office (WTO) to
identify, monitor, and analyze trends and conditions affecting timely and efficient disability
processing for WTB Soldiers. In addition, they reported that the Veterans Tracking Application
(VTA) was established in February 2012 as the system of record for the selected measures. The
VTA receive updates from IDES stakeholders such as PEBLO, PEB, and the VA Disability
Evaluation System Rating Activity Sites (DRAS). From these updates, the WTO can track the
progress of the Soldiers through the IDES processes.



                                               52
To improve the timeliness, the WRMC WTO began to hold monthly telephone meetings in
March 2013 with the military treatment facilities to discuss MEB cases that exceed the
completion date by 150 days. Again in March 2013, the WRMC revised the threshold date for
MEB case review from 150 days to 100 days.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

D.1.2. Commander, Irwin Army Community Hospital:

       D.1.2.a. Identify obstacles within the Soldiers’ MEB referral, claim development,
       medical evaluation, and MEB processing phases that inhibit prompt MEB
       completion, and provide sufficient staff support for Physical Evaluation Board
       Liaison Officers and ensure that staff to Soldier ratio is sufficient to ensure timely
       processing of MEB packages.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that the Fort Riley staff supporting the MEB phase increased to allow
IACH to meet the MEDCOM IDES timeline of 100 days for completing the Soldiers’ MEBs.
The Surgeon General stated that in January 2013, the IACH met and continue to meet the
MEDCOM timeline goals for MEBs. To meet the timeline goals, Fort Riley began using the
Strategic Management System (SMS) for all IDES data collecting and reporting. The SMS data
comes from VTA and eMEB as weekly updates that IDES staff use for analysis of MEB
progress.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

       D.1.2.b. Educate Soldiers and their families on how to execute the IDES process to
       include a realistic timeline for what the Soldier can expect once the process begins.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that Soldiers receive education from the beginning and thoughtout the
IDES process. The Surgeon General stated that this occurs from initiation into the IDES because
key members of the IDES process host a IDES welcome brief that all Soldiers must attend. They
stated that the welcome brief provides an overview of the IDES process. Later, Soldiers receive
continual IDES process education when the Soldiers meet with the PEBLO, MSC, VA provider,
and the NARSUM writer.




                                              53
Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.

       D.1.2.c. Develop a mechanism whereby a Soldier can track and be informed of his or
       her status in the IDES process.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, stating that the PEBLO is available for questions about the Soldiers IDES
process and that the “My MEB” on the AKO provides Soldiers access to the status of their IDES
process. The PEBLOs provide weekly updates to soldiers on the status of their cases. In
addition, the Surgeon General stated that the PEBLOs meet monthly with Soldiers units to
provide IDES status updates. “My MEB” information comes from the eMEB and the VTA.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.




                                             54
D.2. Access to Behavioral Health Care Resources
Fort Riley WTB Soldiers were unable to schedule and receive timely behavioral health services
at IACH to meet their health needs and to support the medical board process.

This occurred because there were not enough behavioral health and supporting behavioral health
services to support the demand.

As a result, the Soldiers and their families did not receive timely care to address their needs to
heal and transition back to the Army or to civilian life. This extended their stay beyond
established standards and could negatively impact Soldiers’ medical recovery.

D.2. Background
According to the Assistant Secretary of Defense for Health Affairs, (TRICARE 25 Policy for
Access to Care) dated February 23, 2011, initial treatment to evaluate new or recurrent
behavioral health needs involves an evaluation by a provider who is professionally capable or
specifically privileged to perform behavioral health assessments. Requests for medical
appointments regarding a new behavioral health condition or exacerbation of a previously
diagnosed condition, when not urgent, are defined as routine care, and a medical appointment
should be offered within 7 calendar days and within 30 minutes travel time. If the behavioral
health condition is urgent, the appointment must be within 24 hours and within 30 minutes travel
time. Any additional required behavioral health care is considered “specialty” care and
appointments are supposed to be provided within 28 days.

The Consolidated Guidance states that the Office of the Surgeon General and U.S. Army
Medical Command will maximize capacity by:

     •   increasing staff at behavioral health care capacity at military treatment facilities;
     •   temporarily shifting resources and effectively utilizing a combination of resources to
         improve access to health care and behavioral health care; and
     •   reducing the administrative time that Soldiers spend in WTUs.

D.2. Discussion
Fort Riley IACH had available limited off-post TRICARE providers to augment behavioral
health treatment support to Soldiers assigned to the Fort Riley WTB. Furthermore, the IACH
had designated the MTF as the primary source for behavioral health treatment appointments for
Soldiers. In addition, IACH used the behavioral health staff extensively for completing
NARSUMs and fit-for-duty evaluations, which reduced the number of behavioral medical care
appointments available to Soldiers.




25
  TRICARE is managed by TRICARE Management Activity, a field activity under the policy guidance and
direction of the Assistant Secretary of Defense (Health Affairs) (ASD[HA]). The TMA manages the TRICARE
budget, executes TRICARE policies and oversees the entire TRICARE health program.


                                                    55
Adequacy of the Use of the Behavioral Health Team and Impact on the Availability
of Appointments
IACH used the Behavioral Health Team to complete the medical board backlog of NARSUMs
and fit-for-duty evaluations. Within an 8-month period (September 2010 to May 2011), the
outstanding MEB evaluations caseload increased from approximately 200 to 1,000. In addition,
all Soldiers going through the disability evaluation process required a behavioral health
evaluation, which took approximately two hours to complete. Behavioral health providers had to
conduct 100 percent evaluations of Soldiers going through the IDES process, as well as
medically treat Soldiers with PTSD, TBI, and other psychiatric illnesses.

Psychiatric NARSUMS Impacted by Time
The physical portions of the NARSUM were timely, but delays frequently occurred in
completing the psychiatric portion of the NARSUM. In some cases, the Psychiatric NARSUMS
took approximately 3 to 4 months on average to complete and would extend for as much as 8
months. Because the NARSUMs and behavioral health evaluations were only valid for 6
months, Soldiers had to redo behavioral health appointments for expired NARSUMs and
evaluations. Whenever a completed NARSUM needed revision, Soldiers were at risk of having
to re-accomplish multiple behavioral health appointments and then wait another 3 to 4 months
for their completed NARSUM before they could continue their transition. The waiting period to
complete the MEB phase of the IDES therefore increased for Soldiers due to the delay in waiting
to complete the psychiatric portion of their NARSUMS.

Quality of Life and Transition Times Negatively Affected by Lack of Behavioral
Health Appointments.
The Army Wounded Warrior Program Family Advocates stated that Fort Riley IACH needed
more behavioral health assets to help the Soldiers and their families. Because Fort Riley IACH
had limited behavioral healthcare resources available in the local civilian community, some
Soldiers had to travel to locations such as Lincoln, Nebraska; Washington D.C.; or San Antonio,
Texas, for access to certain behavioral health resources. These locations were beyond the 30-
minute drive time mandated in the TRICARE access to care policy because the nearest location,
Lincoln, Nebraska, was 152 miles from Fort Riley. It could take months to get an appointment at
the Fort Riley IACH because IACH had limited local behavioral health resources. TRICARE
access to care policy required behavioral healthcare appointments within 28 days for non-urgent
care and 24 hours for urgent care. This standard was not consistently being met.

Additionally, the advocates commented that with the lack of behavioral healthcare resources and
meaningful activities, Soldiers were potentially at risk for discipline problems, high-risk
behaviors, such as “four wheeling,” suicides, increased drinking, and driving while intoxicated.
These limited resources also put a strain on marriages and family well-being.

Soldiers often defaulted to walk-in appointments when they needed prompt behavioral health
treatment. However, these walk-in appointments disrupted their continuity of care because
Soldiers had to explain repeatedly their history every time they saw a different behavioral health
provider. The Soldiers said that repeating the same stories of their trauma was stressful, and that
they had to rebuild a trusting relationship every time they saw a new behavioral health provider.
Furthermore, the involvement of multiple behavioral healthcare providers required additional


                                                56
coordination among behavioral health providers to agree on the correct treatment plan for the
Soldiers and ensure that the plan was accurately reflected in the Soldiers NARSUM.

D.2. Conclusion
Behavioral healthcare resources at Fort Riley IACH were insufficient to meet the TRICARE
access to care standards and Soldiers’ needs. The IACH Behavioral Healthcare team could not
adequately support medical boards, and provide behavioral health care appointments to Soldiers
and their families. IACH leadership implemented several noteworthy practices which included
coordinating behavioral healthcare with community behavioral health providers (See
Observation B.3), and sending Soldiers to other military treatment facilities for behavioral
healthcare. Despite these innovative actions, behavioral health capacity remained inadequate.
As a result, Soldiers and their families were at risk of not receiving timely, comprehensive
behavioral healthcare, which adversely affected quality of life and well-being for them and their
families, as well as impeded Soldier healing and delayed transition.

D.2. Recommendations, Management Comments, and Our Responses

       D.2.1. Commander, United States Army Medical Command develop options for
       increasing the number of behavioral health personnel at Fort Riley Irwin Army
       Community Hospital to support the numbers of Soldiers requiring such care and to
       accelerate MEB processing.

The Office of the Surgeon General, U.S. Army Medical Command
Comments
The Office of the Surgeon General, U.S. Army Medical Command concurred with our
recommendation, and noted that IACH is currently meeting the MEDCOM 100-day standard for
MEBs. The Surgeon General further stated that given the announced reductions in force
structure at Fort Riley, no further increase to the number of Behavioral Health Providers is
warranted. In addition, the scheduled reduction of the WTB population from 400 to 270 in
October 2013 will alleviate the need for an increase in the Behavioral Health staff.

Our Response
The Office of the Surgeon General, U.S. Army Medical Command comments are responsive and
meet the intent of the recommendation.




                                               57
This Page Intentionally Left Blank




               58
Appendix A. Scope, Methodology, and
Acronyms
We announced and began this assessment on April 16, 2010. Based on our objectives, we
planned and performed the assessment to obtain sufficient evidence to provide a reasonable basis
for our observations, conclusions, and recommendations. The team used professional judgment
to develop reportable themes drawn from multiple sources, to include interviews with individuals
and groups of individuals, observations at visited sites, and reviews of documents.

We visited the Medical Department Activity (MEDDAC) and the Fort Riley Warrior Transition
Battalion (WTB) located at Fort Riley, Kansas, from May 10- 20, 2011. During our site visit to
that location, we observed battalion operations and formations; viewed living quarters; campus
facilities; and selected operations at the medical facility; and examined pertinent documentation.
We also conducted meetings and interviews – ranging from unit commanders, staff officers, and
WTB staff, to civilian staff and contractors – as shown below:

   •   MEDDAC Commander and Sergeant                     •   WTB Squad Leaders
       Major                                             •   Primary Care Managers
   •   Deputy Commander for Clinical                     •   Nurse Case Managers
       Services                                          •   Behavioral Health Clinical
   •   Deputy Commander for                                  Psychologists
       Administration                                    •   Behavioral Health Licensed Clinical
   •   Deputy Commander Health                               Social Workers
       Services/Senior Nurse                             •   Occupational Therapists
   •   WTB Commander, Sergeant Major,                    •   Soldier and Family Assistance
       and Executive Officer                                 Center Director
   •   WTB Operations and Personnel                      •   Physical Evaluation Board Liaison
       Officers                                              Officer (PEBLO)
   •   WTB Surgeon                                       •   Ombudsman
   •   WTB Pharmacist                                    •   Soldier Family Advocate
   •   WTB Chaplain                                      •   Family Member of Recovering
   •   WTB Company Commanders                                Service Member
   •   WTB First Sergeants

Further, we performed interviews with WTB recovering Soldiers, to include 48 individual
interviews, and 6 group interviews by rank and component. The 6 groups totaled 91 Soldiers that
consisted of 45 Active Duty and 46 National Guard/Reserves. Table 1 below shows the six groups
divided by Army Component, rank, and grade and the number interviewed.




                                                59
     Table 1. The Army Component Categorization of the Group Soldiers Interviews
            Conducted at Fort Riley between May 10, 2011 and May 20, 2011
      Group                                                           Number
                Army Component            Rank and Grade
     Number                                                         Interviewed

     Group 1          Active Duty                       E1- E4                    20
                                             (Private through Specialist)
     Group 2          Active Duty                       E5- E7                    20
                                          (Sergeant through Sergeant First
                                                        Class)
     Group 3          Active Duty                       E8- O4                     5
                                           (Master Sergeant/First Sergeant
                                            through Lieutenant Colonel)
     Group 4        National Guard                      E1- E4                    20
                     and Reserves            (Private through Specialist)
     Group 5        National Guard                      E5- E7                    18
                     and Reserves         (Sergeant through Sergeant First
                                                        Class)
     Group 6        National Guard                      E8- O5                     8
                     and Reserves         (Master Sergeant/First Sergeant
                                            through Lieutenant Colonel)
 Source: Obtained from the SPO DoD OIG Interviewee List

We prepared standardized sets of questions used during individual and group sessions, which we
tailored to the type or group of personnel interviewed. Those interviews primarily included, but
were not limited to, recovering Soldiers and members of the Triad of Care – primary care
managers, nurse case managers, and WTB squad leaders. The standardized interview questions
for these groups included topics such as access to care, use of Comprehensive Transition Plans,
responsibilities for Triad of Care members, working relationships amongst the Triad of Care
members, and discipline issues within the WTB.

Use of Technical Assistance and Computer-Processed Data
We did not use computer-processed data to perform this assessment. However, analysts from the
DoD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative Methods
and Analysis Division, used a simple random sample approach to determine the number of
Soldiers we should interview at the Fort Riley WTB to obtain a representative sample. The use
of a random sample was to avoid introducing any biases that could occur by selecting
interviewees non-statistically.

The analysts used a list of Soldiers identified by name and WTB company assignment (Alpha
Company, Bravo Company, and Headquarters Company), which we obtained from the Fort
Riley WTB. As of April 21, 2011, the total population of Soldiers at the Fort Riley WTB was
308 Soldiers, comprising the total population from which we drew our random sample.



                                                  60
The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 308 Soldiers into
random number sequence. Using this method, the analysts calculated a sample size of
56 Soldiers for individual interviews. We based the sample size on a 90 percent confidence
level, a planned margin of error of 10 percent, and the statistically conservative assumption of a
50 percent error rate. First, the team used this approach to determine whether those most
impacted by their assignment to the WTB identified reportable themes (noteworthy practices,
good news, issues, concerns, and challenges): the Soldiers.

We provided the list of 65 Soldiers to interview from our randomly generated sample to the Fort
Riley WTB. We advised the WTB to fill the interview slots with the Soldiers indicated. If an
individual Soldier selected for was not available, we provided a list of 15 alternates as
replacements in case the originally selected were not available for interview. The total Soldiers
identified for interviews were 80. We further advised the Fort Riley WTB that a justification
must be provided for any individuals in that sequence that were unable to attend an interview for
mitigating reasons such as convalescent leave, annual leave, medical appointments, physical
impairments, or logistical constraints.

We interviewed 48 Soldiers of which 42 Soldiers were from the primary list and six were from
the alternate list. The Fort Riley WTB provided an acceptable excuse for all the Soldiers who
were unavailable for the interviews. The acceptable excuses included At Remote Care, Regular
Leave, Maternity and Paternity Leave, Terminal Leave, Permanent Change of Station, and
Transferred to In-Patient Care. We believe that the information obtained from the 48 individuals
selected as part of our original random sample, as well as the six groups of Active Duty and
National Guard/Reserve Soldiers provided a reasonable indication of the views of the total
population.

We met and interviewed others – ranging from unit commanders, staff officers, and WTB staff,
to civilian staff and contractors – to corroborate the identified themes or to identify other
reportable themes not readily known to the Soldiers.




                                                61
Acronym List
The following are acronyms used in this report.

1st ID                1st Infantry Division
AW2                   Army Wounded Warrior Program
ACAP                  Army Career and Alumni Program
ACS                   Army Community Service
aCTP                  Automated Comprehensive Transition Plan
AHLTA                 Armed Forced Health Longitudinal Technology Application
AKM                   Army Knowledge Management
AKO                   Army Knowledge Online
ALTRACT               All Army Activities
AWCTS                 Army Warrior Care and Transition System
BH                    Behavioral Health
BRAC                  Base Realignment and Closure
C2                    Command and Control
CAC                   Common Access Cards
CBWTU                 Community Based Warrior Transition Unit
CER                   Career and Education Readiness
CG                    Commanding General
CHTW                  Coming Home to Work
CM                    Case Management
CO-ADOS               Contingency Operations Active Duty for Operational Support
CONUS                 Continental United States
COTA                  Certified Occupational Therapy Assistant
CSF                   Comprehensive Soldier Fitness
CSW                   Clinical Social Worker
CTP                   Comprehensive Transition Plan
CTP-G                 Comprehensive Transition Plan - Guidance
CWO2                  Chief Warrant Officer Two
CYS/CYSS              Child, Youth, and School Services
DES                   Disability Evaluation System
DCCS                  Deputy Commander for Clinical Services
DODI                  Department of Defense Instruction
DOD IG                Department of Defense Office of the Inspector General
DTM                   Directive-Type Memorandum
DVA                   Department of Veterans Affairs
DVBIC                 Defense and Veterans Brain Injury Center
E2I                   Education and Employment Initiative
EEI                   Employment, Educational, and Internship Programs
EFMP                  Exceptional Family Member Program
ERS                   Evaluation Reporting System
EXORD                 Execution Order
FRAGO                 Fragmentary Order
FTR                   Focused Transition Review


                                              62
GME       Graduate Medical Education
HHC       Headquarters and Headquarters Company
IACH      Irwin Army Community Hospital
IDES      Integrated Disability Evaluation System
JER       Joint Ethics Regulation
LCSW      Licensed Clinical Social Worker
LPN       Licensed Practical Nurse
LVN       Licensed Vocational Nurse
MEB       Medical Evaluation Board
MEDCOM    The United States Army Medical Command
MEDDAC    Medical Department Activity
MSC       Military Service Coordinator
mTBI      Mild Traumatic Brain Injury
MTF       Military Treatment Facility
NARSUM    Narrative Summary
NCM       Nurse Case Managers
NCO       Non-Commissioned Officer
NJP       Non-Judicial Punishment
OCO       Overseas Contingency Operations
OPORD     Operational Order
OTR       Occupational Therapist Registered
OTSG      Office of the Surgeon General
OEF       Operation Enduring Freedom
OIF       Operation Iraqi Freedom
OWF       Operation WARFIGHTER
PA        Physician Assistant
PCM       Primary Care Manager
PCS       Permanent Change of Station
PEB       Physical Evaluation Board
PEBLO     Physical Evaluation Board Liaison Officer
PMART     Pharmacy Medication Analysis & Reporting Tool
PT        Physical Therapist
PTA       Physical Therapy Assistant
PTSD      Post-Traumatic Stress Disorder
RC        Reserve Component
SFAC      Soldier and Family Assistant Center
SL        Squad Leader
SOPs      Standard Operation Procedures
SUN       Spouses Understanding Needs
TBI       Traumatic Brain Injury
TCS       Temporary Change of Station
TDRL      Temporary Disability Retired List
TOL       Triad of Leadership
TRICARE   Tri-Service Medical Care
TSGLI     Traumatic Servicemember’s Group Life Insurance
UCMJ      Uniform Code of Military Justice



                                63
VA     Department of Veterans Affairs
VR&E   Vocational Rehabilitation and Employment
WCTP   Warrior Care and Transition Program
WT     Warrior in Transition
WTB    Warrior Transition Battalion
WTC    Warrior Transition Command
WTU    Warrior Transition Units
WRMC   Western Regional Medical Command




                             64
Appendix B. Summary of Prior Coverage
Several reports were issued during the past 6 years about Department of Defense and Department
of Veterans Affairs’ health care services and management, disability programs, and benefits.
The Government Accountability Office (GAO), the Department of Defense Inspector General
(DOD IG), and the Naval Audit Service have issued 28 reports relevant to DoD Warrior Care
and Transition Programs.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/PUBS/index.html.
Naval Audit Service reports are not available over the Internet.

GAO
GAO Report No. GAO-13-5, “Recovering Servicemembers and Veterans, Sustained Leadership
Attention and Systematic Oversight Needed to Resolve Persistent Problems Affecting Care and
Benefits,” November 2012

GAO Report No. GAO-12-676, “Military Disability System: Improved Monitoring Needed to
Better Track and Manage Performance,” August 28, 2012

GAO Report No. GAO-12-718T, “Military Disability System: Preliminary Observations on
Efforts to Improve Performance,” May 23, 2012

GAO Report No. GAO-12-27R, “Department of Defense: Use of Neurocognitive Assessment
Tools in Post-Deployment Identification of Mild Traumatic Brain Injury,” October 24, 2011

GAO Report No. GAO-12-129T, “DOD and VA Health Care: Action Needed to Strengthen
Integration across Care Coordination and Case Management Programs,” October 6, 2011

GAO Report No. GAO-11-551, “Defense Health Care: DOD Lacks Assurance that Selected
Reserve Members Are Informed about TRICARE Reserve Select,” June 3, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program: Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-11-633T, “Military and Veterans Disability System: Worldwide
Deployment of Integrated System Warrants Careful Monitoring,” May 4, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-11-69, “Military and Veterans Disability System: Pilot Has Achieved
Some Goals, but Further Planning and Monitoring Needed,” December 6, 2010




                                             65
GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008

GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Servicemembers,” February 27, 2008

GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Servicemembers,” September 26,
2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Servicemembers,”
May 11, 2006

DOD
Department of Defense Recovering Warrior Task Force, 2011-2012 Annual Report, August 31,
2012

Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report, September
2, 2011

DOD IG
DOD IG Report No. DODIG-2012-120, “Assessment of DoD Wounded Warrior Matters –
Wounded Warrior Battalion – West Headquarters and Southern California Units,” August 22,
2012

DOD IG Report No. DODIG-2012-067, “Assessment of DoD Wounded Warrior Matters – Camp
Lejeune,” March 30, 2012

DOD IG Report No. SPO-2011-010, “Assessment of DOD Wounded Warrior Matters – Fort
Drum” September 30, 2011

DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort
Sam Houston,” March 17, 2011




                                             66
DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on Mental
Health,” April 15, 2008

Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance Management
Program – Preseparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                           67
This Page Intentionally Left Blank




               68
Appendix C. Reporting Other Issues
We performed the Assessment of DoD Wounded Warrior Matters at four Army WTB locations
and two Marine Corps Wounded Warrior Battalion (WWBn) locations and reported on each
location separately. This assessment report focused on whether the programs for the care,
management, and transition of Warriors in Transition at the Fort Riley, Kansas, WTB were
managed effectively and efficiently.

Additionally, in the future we plan to report on issues, concerns, and challenges that were
common among the six sites we visited, and identified as systemic issues. These reports will be
provided to appropriate organizations to provide information on or identify corrective actions
addressing those issues, concerns, and challenges. Those organizations may include but are not
limited to the Under Secretary of Defense for Personnel and Readiness; the Assistant Secretary
of Defense for Health Affairs; the U.S. Army Medical Department, Office of the Surgeon
General; the U.S. Army Medical Command, Warrior Transition Command; and others as
required.

This appendix captures issues, concerns, and challenges we identified that may be included in
future reports. Refer to the table below for some potential report topics.

                                   Table 2. Potential Report Topics

                                                                                    Report
                         Issue, Concerns, and Challenges
                                                                                  Reference(s)
Selection and Training of Leaders and Cadre of Warrior Transition Units           N/A
Medication Management                                                             B.2., pages
                                                                                  26-29
Assessment of Navy and Air Force Wounded Warrior Programs                         N/A
Management of National Guard and Reserve Recovering Service Members               B.1., pages
Healthcare Delivery                                                               23-25
Timely Access to Specialty Medical Care                                           D.2., pages
                                                                                  55-57
Service-level Management of the Integrated Disability Evaluation System (IDES)    D.1., pages
                                                                                  49-54
Source: Results of Assessments of the DoD Wounded Warrior Matters




                                                   69
This Page Intentionally Left Blank




               70
Appendix D. Army Guidance for Warrior
Transition Units
Army guidance for the care and management of Warriors is contained in the “Warrior Transition
Unit Consolidated Guidance (Administrative),” March 20, 2009 (hereafter, “Consolidated
Guidance”). It was revised in March 20, 2009 to update policies and guidance for the care and
management of Warriors. According to the Consolidated Guidance, a Warrior is a Soldier
assigned or attached to a WTU whose primary mission is to heal.

The Consolidated Guidance addresses specific policy guidance regarding assignment or
attachment to a WTU, the process for the issuance of orders to Soldiers, and other administrative
procedures for Soldiers under consideration for assignment or attachment to a WTU. The
publication also summarizes existing personnel policies for family escort, non-medical attendant,
housing prioritization, leave, and other administrative procedures for Soldiers assigned or
attached to a WTU. Further, it provides information on the Physical Disability Evaluation
System for Soldiers processing through this system.

Pertinent Federal statutes, regulations, and other standards governing these programs and
services are cited throughout the Consolidated Guidance and are collated in a reference section.
The document also states that, previously, there was no overarching Army collective or
regulatory administrative guidance for WTUs.

The authorities for establishing the WTUs are:

   •   Department of the Army EXORD [Execute Order] 118-07 Healing Warriors, June 21, 2007
   •   Department of the Army FRAGO [Fragmentary Order] 1 to EXORD 118-07 Healing Warriors,
       August 16, 2007.
   •   Department of the Army FRAGO 2 to EXORD 118-07 Healing Warriors, December 14, 2007.
   •   Department of the Army FRAGO 3 to EXORD 118-07 Healing Warriors, July 1, 2008.

The overview of the WTU program is stated as:
   •   Vision – to create an institutionalized, Soldier-centered WTU program that ensures
       standardization, quality outcomes, and consistency with seamless transitions of the
       Soldier’s medical and duty status from points of entry to disposition.
   •   Goal – to expeditiously and effectively evaluate, treat, return to duty, and/or
       administratively process out of the Army, and refer to the appropriate follow-on
       healthcare system, Soldiers with medical conditions.
   •   Intent – to provide Soldiers with optimal medical benefit, expeditious and comprehensive
       personnel and administrative processing, while receiving medical care. The Army will
       take care of its Soldiers through high quality, expert medical care. For those who will
       leave the Army, the Army will administratively process them with speed and compassion.
       The Army will assist with transitioning Soldiers’ medical needs to the Department of
       Veterans Affairs for follow-on care.




                                                 71
The objectives of the WTU program are stated as:

     •   “Address and ensure resolution on all aspects of personnel administration and processing
         for the WT [a Warrior] from points of entry through disposition, to include processing
         through the Physical Disability Evaluation System (PDES). Final disposition occurs
         when the WT is determined/found medically cleared for duty or the PDES process is
         complete, including appeals.”
     •   “Address and ensure resolution on the administrative aspect of medical management for
         the WT, including Tri-Service Medical Care (TRICARE) and/or Veterans Health
         Administration follow on medical care.”
     •   “Address and ensure resolution on command and control (C2), including logistical
         support, for the WT assigned or attached to garrison units, Medical Treatment Facilities
         (MTF), Warrior Transition Units (WTU), and Community-Based Warrior Transition Unit
         (CBWTU).” 26
     •   “Address and ensure resolution on the accountability and tracking of the WT in real time
         as he/she progresses through the WT process and if necessary, the PDES process.”

The Mission Essential Task List of the WTU program states that the Army will–

     •   “Provide Command/Control and Administrative Support (including pay) trained to focus
         on special needs of WT Soldiers.”
     •   “Provide high quality, expert medical care, and case management support - Primary Care
         Provider, Case Manager, Behavioral Health, Specialty Providers.”
     •   “Administratively process with speed and compassion those who will leave the Army.”
     •   “Facilitate transition of separating and REFRAD’ing [Release From Active Duty]
         Soldiers to the VHA [Veterans Health Administration] or TRICARE for follow-on care.”

The WTU concept of operations is stated as:

     •   “Provide Soldiers high-quality living conditions.”
     •   “Prevent unnecessary procedural delays.”
     •   “Establish conditions that facilitate Soldier’s healing process physically, mentally, and
         spiritually.”
     •   “Provide a Triad of Warrior Support that consist of Platoon Sergeant/Squad Leader, Case
         Manager (CM), and Primary Care Manager (PCM), working together to ensure advocacy
         for WT Soldiers, continuity of care and a seamless transition in the force or return to a
         productive civilian life.”




26
  Community-Based WTUs are primarily for Reserve Component Soldiers. Community-Based WTU is a program
that allows Warriors to live at home and perform duty at a location near home while receiving medical care from the
Tricare network, the Department of Veterans Affairs, or Military Treatment Facility providers in or near the
Soldier’s community.


                                                        72
Appendix E. Office of the Surgeon General
Policy for the Comprehensive Transition Plan
The Army Surgeon General is also the Commanding General of the Army Medical Command
(MEDCOM). The Surgeon General is the medical expert on the Army staff, advising the
Secretary of the Army, Army Chief of Staff, and other Army leaders. The Surgeon General
develops the policy and budgets. As, the Commanding General (CG) of MEDCOM, the CG is
responsible for the delivery of healthcare in the Army’s military treatment facilities and executes
the budgets and policies.

The Army Medical Command has numerous subordinate commands including five Regional
Medical Commands, the Warrior Transition Command, and the Army Medical Department
Center and School. The Regional Medical Commands oversee the operations, staffing and
resourcing of the military treatment facilities in their area of geographic responsibility. The
military treatment facilities are hospitals, medical centers, clinics, or medical care sites. The
WTU is a subordinate command of the military treatment facility that is responsible for the
complex medical case management of seriously wounded, injured, or ill Soldiers.

The Warrior Transition Command is the MEDCOM subordinate organization responsible for
managing the Army’s Warrior Care and Transition Program (WCTP); coordinating wounded, ill,
or injured Soldiers movement; implementing the Recovery Coordination Program and
Comprehensive Transition Plan; and assisting WTC and AW2 Soldiers, Veterans, and their
Families with career and education opportunities. The WTC ensures the standardization of the
implementation of the WCTP program across the Army.

The Office of the Surgeon General Medical Command Policy Memo 11-098, November 29,
2011, “Comprehensive Transition Plan (CTP) Policy,” stated that all Soldiers, regardless of CTP
track, would complete six CTP processes. These processes overlap, interrelate, and include
multiple interconnected feedback loops. All Soldiers will complete in-processing, phase I goal
setting training, initial self-assessment, CTP track selection, and initial scrimmage within 30
days of arrival at a WTU, which will be documented using the automated CTP, counseling
records, and AHLTA. 27 Specifically, these six processes included:

     •   In-processing – lays the foundation for integration into the WTU/CBWTU and initiates
         the CTP
     •   Goal Setting – guides the Soldier and his Family in the development of sub-goal (short-
         term) and transition outcome goal (long-term). The Specific, Measurable, Actionable,
         Realistic, and Time Bound (SMART) Action Statements provides the Soldier a roadmap
         that supports healing and transition




27
  Armed Forces Health Longitudinal Technology Application (AHLTA) is the clinical information system that
generates and maintains a lifelong, computer-based outpatient record for every Soldier, Sailor, Airman, and Marine;
their family members; and others entitled to DoD military care who receives care in a military treatment facility.


                                                        73
     •   Transition Review – provides the interdisciplinary team with an opportunity to review
         Soldier goals and progress with a focus on identifying and resolving issues that are
         impeding goal attainment. This process includes self-assessment and scrimmage steps:

         o Self-Assessment – designed to facilitate weekly discussions between the Soldier and
           his Squad leader or Platoon Sergeant and Nurse Case Manager
         o Scrimmage – a formal meeting with the Soldier’s interdisciplinary team that uses six
           domains of strength (career, physical, emotional, social, Family and spiritual) to
           develop and refine a future oriented Transition Plan
         o Focused Transition Review (FTR) – a formal meeting that is similar to scrimmage,
           but focuses more on the transition plan progress and development of a new plan to
           track remaining actions and sub-goals. Acts more as a feedback and an after action
           review of the process for each Soldier and the supporting interdisciplinary team
         o Synchronization of the scrimmage and FTR timelines – FTR’s augment and provide
           additional company and battalion level focus to quarterly scrimmages

     •   Rehabilitation – provides appropriate clinical and non-clinical interventions to support
         the Soldier’s transitional goals
     •   Reintegration – designed to specifically prepare each Soldier and his Family for a
         successful transition back to the force or to civilian life as a Veteran
     •   Post-transition – refers to the period after a Soldier has exited the WTU/CBWTU. The
         Soldier is under the guidance of his gaining unit, the VA, and/or the AW2 28 Program, if
         eligible. Figure 1 illustrates the six processes of the CTP as described above.




28
   Army Wounded Warrior (AW2) is an Army program that assists and advocates for severely wounded, ill, and
injured Soldiers, Veterans, and their Families, wherever they are located, regardless of military status. The system
of support and advocacy uses a non-medical case management model to help guide severely wounded, injured, and
ill, Soldiers from evacuation, through treatment, rehabilitation, return to duty or military retirement and transition
into the civilian community. AW2 works inside the network of Army, Government, and local and national
resources to help Soldiers and Families resolve many issues and foster independence into the next stage of their
lives.


                                                          74
                       Figure E-1. CTP Process Flowchart




Source: Warrior Transition Command, Comprehensive Transition Plan Policy and Guidance –
December 1, 2011




                                             75
This Page Intentionally Left Blank




               76
Appendix F. Medical Evaluation Board
Background
The MEB is the process designed to determine whether a Soldier’s long-term medical condition
enables him/her to continue to meet medical retention standards. The MEB is an informal board
process because, by itself, it does not drive any personnel actions.

Initiation of Medical Evaluation
Soldiers receive referral for medical evaluation when a question arises as to the Soldiers’ ability
to perform the duties of his or her office, grade, rank, or rating because of physical disability.
The referral could occur through the Army Surgeon General to the responsible MTF, directly
from the MTF treating the Soldiers, or from the unit commander to the MTF for evaluation.

Medical Examination Related to Disability Evaluation
The MTF commander having primary medical care responsibility will conduct an examination of
Soldiers referred for evaluation. The commander will advise the Soldiers’ commanding officer
of the results of the evaluation and the proposed disposition. If it appears that the Soldiers are
not medically qualified to perform duty, the MTF commander will refer the Soldiers to a MEB.

The Medical Evaluation Board
The convening of the MEB is to document the effect of the Soldiers’ medical status and duty
limitations on their ability to perform their duty. The MEB determines whether the Soldier is
medically qualified for retention. If the MEB determines that the Soldier does not meet retention
standards, the board will recommend referral of the Soldier to a PEB.

Narrative Summary
The narrative summary (NARSUM) is the basis for the MEB and the disability evaluation
system. Incomplete, inaccurate, misleading, or delayed NARSUMs may result in injustice to the
Soldier or to the Army. The NARSUM documents the history of the Soldier’s illness, objective
findings on examination, results of radiology and laboratory tests, reports of consultations,
response to therapy, and addresses the subjective conclusions with rationale. The NARSUM
shows the correlation established between the Soldier’s medical defects and physical capabilities.
This is important when a chronic condition is the basis for referral to a PEB and no change in
severity of the condition has occurred or when referral of the case to a PEB appears
controversial. The date of onset of a medical impairment may be questionable because of
relatively short military service and the nature of the impairment, for example, a mental disease.
If so, the NARSUM should address the results of inquiry into the pre-service background
(family, relatives, medical, and community) of the Soldier in sufficient detail to overcome
substantive question concerning the date of onset. When a Soldier has a diagnosis with a mental
disorder, the NARSUM must include a statement indicating whether the Soldier is mentally
competent for pay purposes and capable of understanding the nature of, and cooperating in, PEB
proceedings. NARSUMs will not reflect a conclusion of unfitness. When disclosure of medical
information would adversely affect the Soldier’s physical or mental health, the NARSUM should
include a statement to that fact. Finally, the NARSUM should include the date of the physical
examination conducted for purposes of physical disability evaluation.


                                                77
This Page Intentionally Left Blank




               78
Appendix G. Management Comments
Office of the Surgeon General, U.S. Army Medical Command




                           79
80
81
82
83
84
85
This Page Intentionally Left Blank




               86
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
